<html>
<title> - NOBEL PEACE PRIZE LAUREATE LIU XIAOBO AND THE FUTURE OF POLITICAL REFORM IN CHINA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   NOBEL PEACE PRIZE LAUREATE LIU XIAOBO AND THE FUTURE OF POLITICAL 
                            REFORM IN CHINA

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            NOVEMBER 9, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-290                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

BYRON DORGAN, North Dakota,          SANDER LEVIN, Michigan, Cochairman
Chairman                             MARCY KAPTUR, Ohio
MAX BAUCUS, Montana                  MICHAEL M. HONDA, California
CARL LEVIN, Michigan                 TIMOTHY J. WALZ, Minnesota
DIANNE FEINSTEIN, California         DAVID WU, Oregon
SHERROD BROWN, Ohio                  CHRISTOPHER H. SMITH, New Jersey
SAM BROWNBACK, Kansas                EDWARD R. ROYCE, California
BOB CORKER, Tennessee                DONALD A. MANZULLO, Illinois
JOHN BARRASSO, Wyoming               JOSEPH R. PITTS, Pennsylvania      
GEORGE LeMIEUX, Florida              


                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                 Charlotte Oldham-Moore, Staff Director

             Douglas Grob, Cochairman's Senior Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Byron L. Dorgan, a U.S. Senator from 
  North Dakota; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Appiah, Kwame Anthony, President, PEN American Center............     5
Economy, Elizabeth C., C.V. Starr Senior Fellow and Director for 
  Asia Studies, Council on Foreign Relations.....................     7
Gilley, Bruce, Assistant Professor of Political Science, Mark O. 
  Hatfield School of Government, Portland State University.......    10
Kine, Phelim, China Researcher, Human Rights Watch...............    12

                                Appendix

.................................................................

                          Prepared Statements

Appiah, Kwame Anthony............................................    30
Economy, Elizabeth C.............................................    32
Gillley, Bruce...................................................    36
Kine, Phelim.....................................................    38
.................................................................

Levin, Hon. Sander, a U.S. Representative from Michigan; 
  Cochairman, Congressional-Executive Commission on China........    41

                       Submission for the Record

Leaflet submitted by Kwame Anthony Appiah........................    43


   NOBEL PEACE PRIZE LAUREATE LIU XIAOBO AND THE FUTURE OF POLITICAL 
                            REFORM IN CHINA

                              ----------                              


                       TUESDAY, NOVEMBER 9, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:30 
a.m., in room 628, Dirksen Senate Office Building, Hon. Byron 
L. Dorgan, Chairman, presiding.
    Also present: Representative Sander Levin, Cochairman.

OPENING STATEMENT OF HON. BYRON L. DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Dorgan. Good morning. We're going to begin the 
hearing. This is a hearing of the Congressional-Executive 
Commission on China. I'm Senator Dorgan and we will have 
Congressman Levin join us in a few moments. I think in the 
interest of time, I want to begin on time, and he is 
necessarily delayed, but I am pleased that he's on his way, and 
will be here shortly.
    We've called this hearing for one reason, and one reason 
only, and that is that, as much of the world celebrates the 
awarding of the Nobel Peace Prize to a remarkable man, that 
remarkable man stares at the rest of the world from behind a 
prison door in the country of China.
    It's sending very substantial messages to the rest of the 
world, it seems to me, that someone so talented, so fervent in 
his support of human rights and democratic values is awarded a 
Nobel Peace Prize, and learns of it while in a prison cell.
    The question is, what does all that mean? Is it unusual? 
What can we expect in the future with respect to the government 
of China and the country of China and the path of human rights?
    In announcing the award that was given to Mr. Liu Xiaobo, 
he was celebrated for what is called ``a long and non-violent 
struggle for fundamental human rights in China.'' It's a short 
little phrase that speaks so much about work that has gone on 
for so long by Mr. Liu.
    I hope that a number of you who have come to this hearing 
have been able to pick up a copy of the large collection of 
articles that have been published by this Commission available 
at the door of this hearing room, along with a copy of the 
Commission's most recently released 2010 Annual Report. That 
covers Mr. Liu's case in detail. As you will see, this 
Commission has followed and publicized Mr. Liu's case for 
several years.
    The Chinese Government now is punishing this man in part 
for his role in something called ``Charter 08,'' a document 
that calls for human rights and political reform in China. Mr. 
Liu is currently serving an 11-year sentence in a Chinese 
prison on the charge of ``inciting subversion of state power.''
    This Commission, which is charged by law to monitor the 
Chinese Government's progress toward the development of 
institutions of democratic governance, today will assess 
debates over political reform in China to ask what do Mr. Liu's 
writings and advocacy mean for China, and what impact, if any, 
his receiving the Nobel Peace Prize may have on democracy and 
human rights in China.
    These questions have become highly important now not only 
as a result of the actions of the Nobel Committee, but also 
China's Premier Wen, himself, was recently quoted as saying, 
``If there is no guarantee of reform of the political system, 
then results obtained from the reform of the economic system 
may be lost.'' I find that a peculiar sentence to read from the 
Premier in as much as the Nobel Peace Prize recipient is behind 
a prison door in his country.
    When China's leaders make reference to ``reform of the 
political system'' what do they mean? What exactly do they 
mean? As China prepares now for major leadership changes in 
2012, we need to understand exactly what the prospects for 
political reform in China would be today. And as we prepare to 
do that, I just wanted at this hearing to take a moment to say 
a few words about Mr. Liu.
    He was born in 1955. He grew up in Changchun, an industrial 
city in China's northeast. As a young man, he wanted to study 
literature, and he moved to Beijing. He earned a Ph.D. degree 
in Comparative Literature, became a professor, and devoted his 
days to teaching and to writing.
    By 1989, he had the good fortune to travel abroad as a 
visiting scholar. When demonstrations began to grow that year 
in Tiananmen Square, he was a visiting scholar at Columbia 
University, here in the United States. He cut short his stay in 
New York, and he returned home to China, joining students on 
Tiananmen Square in a hunger strike. Then on the night of June 
4, a scholar whom the students had grown to trust, negotiated 
the last minute withdrawal of the group of students from the 
Square, convincing them to leave the Square and to save their 
lives. That scholar was Mr. Liu.
    Authorities immediately branded him as a subversive and 
sentenced him to 18 months in prison. On his release from 
prison he could neither publish nor teach. And he described his 
plight in these words:

        Simply for expressing divergent political views and taking part 
        in a peaceful and democratic movement, a teacher has lost his 
        podium, a writer has lost his right to publish, and an 
        intellectual has lost the chance to speak publicly.

    Upon his release from prison in 1991, he continued to 
write, however, and again he was placed under house arrest in 
1995, then ordered to a labor camp where he was detained--
imprisoned until 1999.
    In December 2008 after supporting a call for political 
reform known as Charter 08, he was detained once again, later 
formally arrested, and then sentenced to 11 years in prison.
    Let it be known that Charter 08 is a call for such things 
as ``guarantee of human rights,'' ``separation of powers,'' 
``independent judiciary,'' ``rural urban equality,'' ``freedom 
to assemble,'' ``freedom to form groups,'' ``freedom of 
expression,'' ``freedom of religion,'' ``civic education,'' 
``protection of private property,'' ``financial and tax 
reform,'' ``social security,'' and ``protection of the 
environment.'' None of which seems subversive to me.
    And so the Chinese Government now tells us that these are 
things--the aspirations--which the people in China have 
witnessed for some while, these are things for which people may 
be sent to prison. And so we ask what does that mean? What does 
it mean for the country of China? What does it mean for our 
country's dealings with the country of China? What does it mean 
for people like Mr. Liu who today stares outward from the 
depths of a dark Chinese prison cell.
    In a recent interview with CNN, Premier Wen stated: 
``Freedom of speech is indispensible. The people's wishes for, 
and needs for, democracy and freedom are irresistible.''
    That from the lips of Premier Wen. And so one asks, how can 
one say that? How can one assert that? How can one believe that 
when Mr. Liu is in a Chinese prison while the rest of the world 
celebrates the Nobel Peace Prize given to this remarkable man.
    Again, we've held this hearing for one purpose and one 
purpose only. And that is to demonstrate and show the absurdity 
and cruelty of having one of the celebrated people in this 
world, someone who has now been honored with the Nobel Peace 
Prize being held this morning in a prison in China in the 
second year of an 11-year prison sentence for advocating for 
human rights and the principles of democracy and free speech.
    My hope is that the Chinese Government and Chinese 
officials will understand and listen and hear the voices from 
around the world, the voices from this country, and the voices 
from in this room that say you can't talk about these 
principles and then continue to imprison someone like Mr. Liu 
and have the rest of the world have any belief at all in what 
you say.
    We are joined today by a number of witnesses we have 
invited to this hearing. We will hear from four of them and 
then have some questions. And I appreciate very much their 
willingness to be here. I'm going to introduce all four and 
then we'll go down the list. And let me hope that I have the 
names correct--pronounced correctly, at least.
    Kwame Anthony Appiah. Mr. Appiah is President of PEN, P-E-
N, American Center, a global literary and human rights 
organization. He's Lawrence Rockefeller University Professor of 
Philosophy at the University Center for Human Values at 
Princeton University. It was Professor Appiah who nominated Mr. 
Liu for his Nobel Peace Prize. And I have a copy of that 
nomination letter. And Mr. Appiah, it is an extraordinary piece 
of writing and I appreciate as I am sure do most Americans 
appreciate your nomination of Mr. Liu. And as you know the 
Committee obviously looked at that nomination as a very 
significant nomination as well. That's the basis on which they 
awarded the Peace Prize to Mr. Liu.
    Professor Appiah has received his B.A. and Ph.D. from 
Cambridge University in philosophy. He's taught at Yale, 
Cornell, Duke, Harvard, lectured all over the world, joined the 
Princeton faculty in 2002. He's done extensive writing and 
lecturing and traveling. And I won't read all of it, if you 
don't mind. You have a remarkable background.
    Then we will hear from Mr. Bruce Gilley, Assistant 
Professor of Political Science in the Mark Hatfield School of 
Government at Portland State University. Mark Hatfield is a man 
with whom I have had the privilege of serving here in the 
Congress for some many years. An extraordinary American and I 
am pleased to be able to say that you represent part of his 
lineage as well in public service. You do research on democracy 
that is legitimacy in global politics. You've been a specialist 
on the comparative politics of China and Asia; written a number 
of books, ``The Right to Rule: How States Win and Lose 
Legitimacy,'' Columbia Press 2009; ``China's Democratic Future: 
How it Will Happen and Where it Will Lead'' in 2004. You've 
traveled extensively, lectured extensively, and if people want 
to know more about you they can go to Google, I assume. But you 
have a very impressive background as well.
    Elizabeth Economy is Director for Asian Studies at the 
Council on Foreign Relations. She is C.V. Starr Senior Fellow 
and Director for Asia Studies. Her most recent book, ``The 
River Runs Black: The Environmental Challenge to China's 
Future,'' published by Cornell University Press, 2004 with the 
second edition just this year. She was named 1 of the top 50--
excuse me, it was named 1 of the top 50 sustainability books in 
2008 by the University of Cambridge, won the 2005 International 
Convention on Asia Scholar's Award for the best social sciences 
book. Published in Asia, it is one of the top 10 books of 2004 
by the Globalist. And you've published articles in foreign 
affairs and scholarly journals, and you likewise have been 
involved in so many organizations and traveled extensively. And 
we very much appreciate your being here. You have an honorary 
doctorate of law from Vermont Law School and Ph.D. from 
University of Michigan. And enough about you, but I'm 
impressed.
    And finally, Mr. Phelim Kine, is that correct?
    Mr. Phelim Kine is a researcher, a China researcher at 
Human Rights Watch, a really outstanding organization. He works 
in the Asia Division, a former newswire bureau chief in Jakarta 
and worked as a journalist for more than a decade in China, 
Indonesia, Cambodia, and Taiwan prior to joining Human Rights 
Watch in April 2007. He has written extensively on human 
rights, military impunity, corruption, child sex tourism, human 
trafficking, and more. He's been printed extensively and in so 
many journals and newspapers and spoken publicly on many of 
these issues for a long, long while. I understand you are based 
in Hong Kong, Mr. Kine. We appreciate very much your taking the 
time and willingness to be with us today.
    So that is a description of four pretty extraordinary 
people. And we appreciate your taking the time to spend part of 
the morning with us. And I'm going to begin with Mr. Appiah. 
Mr. Appiah, why don't you proceed and I'm told I may have your 
name pronounced incorrectly; is that right? There may be a 
North Dakota pronunciation----
    Mr. Appiah. Given the job that we're going to do in 
massacring Chinese names, I can hardly complain. I normally say 
Appiah, but----
    Chairman Dorgan. Appiah.
    Mr. Appiah [continuing].--There are many ways of 
pronouncing it.
    Chairman Dorgan. All right. Mr. Appiah, thank you very 
much. Why don't you proceed.
    Mr. Appiah. Thank you very much, Chairman Dorgan.

  STATEMENT OF KWAME ANTHONY APPIAH, PRESIDENT, PEN AMERICAN 
                             CENTER

    Mr. Appiah. So I have the honor of being the president of 
the PEN American Center and I am very grateful for the 
opportunity to speak to you today.
    Our center is one of 145 centers in more than 100 countries 
of International PEN which is the world's oldest literary and 
human rights organization. And for nearly 90 years we've 
sustained literary fellowship between the writers of all 
nations and defended free expression at home and abroad. Part 
of this effort involves supporting our colleague Liu Xiaobo who 
served as president of our affiliated independent Chinese PEN 
Center from 2003 to 2007, held a seat on its board until late 
2009, and remains an Honorary President as he's an honorary 
member of our own center here in the United States. In late 
January 2010, in connection with our support for him and the 
cause of democracy in China, I wrote to the Norwegian Nobel 
Committee to urge them to give serious consideration to him as 
a candidate for the Peace Prize. I should say that I wasn't 
alone in doing this. I know that Vaclav Havel, President of the 
former Czechoslovakia and Nobel Laureate Desmond Tutu of South 
Africa made similar appeals.
    And, if I may, I'd like to summarize briefly the arguments 
I made in that letter on behalf of my organization.
    As you mentioned, on December 25, 2009--I don't have to 
draw attention to the significance of the date--a Beijing court 
sentenced Liu to 11 years in prison and an additional 2 years 
deprivation of political rights for inciting subversion of 
state power. This so-called incitement, the verdict made clear, 
consisted of 7 phrases--a total of 224 Chinese characters--that 
he had written over the last three years. Many of these words 
came from Charter 08, which the Chairman mentioned, a 
declaration modeled on Vaclav Havel's Charter 77 that calls for 
political reform and greater human rights in China and has been 
signed, at considerable risk, by more than 10,000 Chinese 
citizens.
    Liu Xiaobo has a long history as one of the leading 
proponents of peaceful democratic reform in the People's 
Republic of China. A poet and literary critic, he served as a 
professor at Beijing Normal University and was a leading voice 
and an influential presence during the student protests in 
Tiananmen Square in 1989; indeed, his insistence on non-
violence and democratic process are widely credited with 
preventing far more catastrophic bloodshed during the 
subsequent crackdown.
    Charter 08 which he coauthored is a testament to an 
expanding movement for peaceful democratic reform in China. 
This document is a remarkable attempt, both to engage China's 
leadership and to speak to the Chinese public about where China 
is and where she needs to go.
    As I say, more than 10,000 Chinese citizens, not only 
dissidents and human rights lawyers, but also prominent 
political scientists, economists, writers, artists, grassroots 
activists, farmers, and even government officials have endorsed 
the document despite the fact that almost all of the original 
300 signers have been, at one point or other, detained or 
harassed. In doing so they exhibited exceptional courage and 
conviction.
    We all recall the period of the Cultural Revolution in 
which millions were uprooted, millions died, and we all 
acknowledge that there's been substantial progress from that 
horrendous nadir. We know, too, that there are voices within 
the regime, urging greater respect for free expression.
    Chairman Dorgan, you mentioned one statement recently, it 
should be pointed out that that segment is not available on the 
Web in China so Chinese people can't even know that their own 
Premier has said those things. It's been removed from the Web 
in China.
    China wants--and needs--to be heard in the community of 
nations. I--and all of my PEN colleagues--in every one of those 
more than 100 countries believe in a cosmopolitan conversation 
in which we hear from every nation. But we also believe we must 
let China's rulers know that we can only listen to them 
respectfully if they offer to their own citizens the 
fundamental freedoms we all claim from our governments.
    Since the announcement of the Peace Prize the government of 
China has behaved with exactly the sort of contempt for the 
rights of her people that Liu Xiaobo has long protested. The 
Chinese Communist Party has demonstrated that it remains 
unfortunately willing to revert to its least attractive 
traditions.
    The Chinese Government blacked out television broadcasts on 
CNN and the BBC and the French station TV5 that reported Liu's 
Nobel Prize. They censored sites on the Web that mentioned him 
or published Charter 08. Indeed, as I said, comically, they 
have censored references to free expression in the recent 
speeches of their own premier. Much less comically, they have 
harassed Liu Xia, Liu Xiaobo's wife, destroying her cell phone, 
denying her Internet access, surrounding her house and placing 
her effectively on house arrest. Her friends and family have 
not been able to be in touch with her since October 20.
    The Chinese authorities have also stepped up pressure on 
members of the Independent Chinese PEN Center [ICPC] as part of 
their campaign to limit information about the awarding of the 
prize. Since the prize was announced on October 8, dozens of 
ICPC's China-based members have been visited by police and 
harassed and several of its leading members are living 
effectively under visual house arrest. Most have been warned 
against speaking out about the award, a move that appears 
calculated to keep the Chinese people in the dark.
    We believe that it is right that President Obama and 
Secretary of State Clinton have raised Liu's case with their 
Chinese counterparts, both before and after his most recent 
sentence, as we at PEN American Center wrote and asked them to 
do. We are grateful that Ambassador Jon Huntsman in Beijing 
sent representation to Liu's trial last year, though the 
diplomat that was sent was denied access to what's supposed to 
be a public court in China. We believe that China should live 
up to the promise made in its own Constitution; promises it 
made when it signed the International Covenant on Civil and 
Political Rights, which we hope it will ratify at some point. 
And we believe that it is America's obligation, as a party to 
the Covenant, to hold China to that standard. But the most 
fundamental reason why we should do this is that these demands 
are right. They are demands of justice.
    The Chinese Government argues that their treatment of Liu 
Xiaobo is an internal matter, and that international awards and 
advocacy on his behalf amount to what they call ``meddling in 
China's internal affairs.'' But the treatment he has endured is 
by definition an international matter, because as all 
violations of human rights are matters of legitimate concern to 
the whole world, to the people of the world. By detaining Liu 
Xiaobo for more than a year and then by convicting and 
sentencing him to 11 years in prison in clear violation of his 
most fundamental, internationally recognized rights, the 
People's Republic of China itself has guaranteed that his case 
is not and cannot be a purely internal affair.
    We have no hostility toward China or the Chinese. Indeed, 
it is our respect and concern for China and her people that 
leads us to urge their government to allow them--all of them--
the freedom to write and to read and to organize that will 
allow them to be responsible citizens of a democratic society, 
and will then allow China to be a responsible and respected 
colleague in the community of democratic nations. Thank you 
very much.
    If I may ask to enter into the record one leaflet on the 
basis of which somebody was arrested in China recently, his 
name is Guo Xianliang and it's just an example of the sort of 
thing that's going on and the sort of harassment that the rest 
of people are exercising their fundamental democratic rights. 
Thank you.
    Chairman Dorgan. Without objection, that will be included 
in the record.
    Let me just say that the full statement that you submit 
will be a part of the record and we'll also include your oral 
testimony.
    Elizabeth Economy is the Director for Asia Studies at the 
Council on Foreign Relations. Thank you very much for being 
with us and you may proceed.
    [The leaflet appears in the appendix.]
    [The prepared statement of Mr. Appiah appears in the 
appendix.]

STATEMENT OF ELIZABETH C. ECONOMY, C.V. STARR SENIOR FELLOW AND 
    DIRECTOR FOR ASIA STUDIES, COUNCIL ON FOREIGN RELATIONS

    Ms. Economy. Thank you very much, Mr. Chairman. It's a 
pleasure to have the opportunity to speak before you this 
morning on this very important and timely issue of political 
reform in China.
    In my five or so minutes, I will make three points.
    First, while China's leaders are committed to reforming 
their political system, they have not arrived at any clear 
roadmap for this reform. There is significant debate over what 
reform means and what it should look like.
    Second, as Beijing tries to figure out its path to 
political reform, there is enormous political change occurring 
outside the system's formal political institutions. This change 
also contributes to the reform of the political system.
    Finally, political change in China is going to come 
primarily from within the country. However, there are several 
ways in which the United States and the rest of the 
international community can exert real influence on this 
process.
    To my first point, what does the consensus around political 
reform look like? Above all, China's leaders want political 
reform because they want to root out corruption, which is the 
major source of social unrest and instability in the country. 
They want it to help address their wide-ranging social problems 
related to the environment, healthcare, education, and income 
inequality. They recognize that the middle class is demanding a 
greater voice within the political system and that the Internet 
is facilitating this in ways that pose a real challenge to the 
current system. They are beginning to understand that their 
political system is a liability to their international 
reputation.
    Although there is consensus on this need for political 
reform, there is a fair amount of debate over what constitutes 
the greatest problem and what ought to be the fundamental 
solution. I would argue that the dominant preference of the 
current political leadership is what I call ``political 
modernization'' which I see as an effort to transform 
institutions of governance to make them more efficient, but at 
the same time to retain the primacy of the party. Political 
modernization includes what we see today; experiments in public 
consultation, for example, in the form of polling local people 
about their preferences for how to spend the local budget, have 
real impact in some small cases.
    Political modernization also includes improvements in 
transparency. China's 2008 Public Disclosure Law, for example, 
allows data collected by government bodies to be accessed by 
the public. In the environmental realm, a couple of NGOs in 
China, coupled with the U.S.-based Natural Resources Defense 
Council combined to produce the document study, ``Breaking the 
Ice on Environmental Open Information,'' which uses the 2008 
law to force cities in China to report the data on levels of 
pollution and others. It's a path-breaking document based on 
this new law.
    There's also more comprehensive reform under way in 
Shenzhen though other political experiments, reducing the size 
of the government and eliminating dual positions for political 
officials so the head of a charity cannot also hold office. In 
some cases, Shenzhen is even outsourcing some traditionally 
governmental responsibilities in social welfare to local NGOs. 
There's also talk about holding direct elections but this has 
yet to materialize.
    At the same time, the government faces pressure from other 
strains of political thought among loose organizations of 
intellectuals and activists. One group, often termed the ``New 
Left,'' focuses on issues of economic justice, the rights of 
the poor, and the emergence of crony capitalism. In many ways, 
these are the very issues that have driven President Hu 
Jintao's concept of a ``harmonious society.'' This group, 
however, tends to favor a strong state-hand in the market. In 
other words, they have a prescription for a political system, 
yet they are relatively suspicious of Western democracy.
    Then, of course, there are the liberal intellectuals, 
activists, and media elite such as Liu Xiaobo or Hu Shuli from 
Caixin. This group advances what I would call ``revolutionary 
reform'': Political reform that would fundamentally transform 
the political institutions of the state, universal values, 
constitutional democracy, and separation of powers.
    China's leaders' current political modernization efforts 
draw upon both of these strains of thought but don't abide by 
either completely. I would argue that there's a third and 
important source of pressure on China's leaders as they attempt 
to plot out a relatively controlled path to political reform: 
The growing role of the Internet in civil society. The Internet 
is a politically organizing force. It can inform debate, as in 
the case of the online discussion of the Dalai Lama and 
Twitter. It can help bring more than 7,000 people to protest in 
Xiamen and it can bring pressure to bear on authorities for 
unjust decisions by a swell of outrage on the Internet. In a 
sense, every Chinese citizen with a cell phone and Internet 
access becomes a journalist. As a result, it is becoming far 
more difficult and in some cases impossible for officials to 
hide blatant wrongdoing.
    In addition, iconic cultural figures such as the blogger 
Han Han and Ai Weiwei use their public stature and the Internet 
as a bully pulpit to advocate for greater openness. China's 
leaders are forced to respond to this dynamic force for 
political change on a daily basis.
    Finally, how does the international community fit into all 
of this? There are several potential avenues.
    First, and most important, we should openly support those 
who are fighting for change in China such as Liu Xiaobo or Hu 
Jia making it not a criticism, but rather a suggestion to China 
about how it can and should live up to its own best ideals as 
represented in its own Constitution.
    Second, we should continue our longstanding practice of 
working with those who are trying to strengthen the rule of law 
transparency and official accountability.
    Third, it is important to help Beijing understand that its 
political system matters to the rest of the world. It is not 
simply ``an internal affair.'' What it does domestically has 
global ramification in terms of product safety, the 
environment, intellectual property rights for every 
transnational issue. China's global actions are derived from 
its domestic political system.
    Finally, advancing the cause of political reform in other 
Asian countries can bring pressure to bear on China by 
undermining the idea that there is something uniquely Western 
in universal values and by demonstrating the limited 
attractiveness of an authoritarian state. Political reform is 
an issue that is going to be decided in China by the Chinese 
people, but I also think we have significant ability to help 
them along in this process.
    Thank you.
    Chairman Dorgan. Dr. Economy, thank you very much. We 
appreciate your testimony.
    Next we'll hear from Mr. Bruce Gilley, Assistant Professor 
of Political Science at Portland State University. And Mr. 
Gilley is an Asian scholar. You may proceed.
    [The prepared statement of Ms. Economy appears in the 
appendix.]

  STATEMENT OF BRUCE GILLEY, ASSISTANT PROFESSOR OF POLITICAL 
SCIENCE, MARK O. HATFIELD SCHOOL OF GOVERNMENT, PORTLAND STATE 
                           UNIVERSITY

    Mr. Gilley. Thank you. I am very grateful to have the 
opportunity to address the Commission this morning. The 
perspective I'd like to offer on Liu Xiaobo's Nobel Peace Prize 
is simple and can be stated as follows:
    Liu Xiaobo's award is important because it is a reminder to 
us in the free world, in the West, and even in the United 
States that even though we are entering a period of intense 
rivalry and possibly conflict with a rising China, the forces 
of modernization and liberalization are at work in that 
country. This means that in the coming decades, even as we 
manage and challenge potentially disruptive behavior by China's 
rulers, its people continue to march toward a democratic 
society.
    I do not believe the Nobel Prize will have any measurable 
effect on political reform in China, any more than the award of 
the same prize to His Holiness the Dalai Lama in 1989 had any 
effect on Chinese rule in Tibet. But I do believe it will serve 
as an important beacon to policymakers outside of China, 
reminding them to engage and target, and to retain faith in, 
Liu Xiaobo's China. The temptation to believe that we are 
engaged in a life-or-death struggle with a hostile new Oriental 
juggernaut will be strong in the coming decades. We should 
instead use Liu Xiaobo's award to think carefully about what is 
going on in China which I will briefly address here, and to 
retain a certain Reaganesque optimism about the potential for 
human freedom everywhere. We should respond to a rising China 
the same way that Liu Xiaobo responded to his state security 
captors before he was sent to jail: we have no enemies, only 
acquaintances who are still trapped in yesterday's modes of 
thought and action, acquaintances whom we hope and fervently 
believe will someday become our friends.
    Honored Commission member, the year is 1975. Russia's GDP 
in that year is about the same as China's today. Andrei 
Sakharov has just been awarded the Nobel Peace Prize and in a 
few years he will be sent to Gorky under house arrest. Global 
geo-political rivalries are intensifying. The international 
politics of the Soviet Union are entering its most difficult 
period. We have an Afghanistan, proxy wars in Africa, the arms 
race, martial law in Poland, KAL 007, and Chernobyl yet to 
come. Earlier claims that the Soviet Union is modernizing and 
liberalizing because of the post-totalitarian reforms under 
Khrushchev are now scoffed at. Smart people, like Harvard 
professor Samuel Huntington, are saying that the chances for 
democratic change in the Soviet Union are ``virtually nil.''
    Looking back, we now realize we missed something 
fundamental. By focusing on the international politics of the 
Soviet Union, we ignored what was happening inside the Soviet 
Union. The message of Sakharov's prize, as should be the 
message of Liu Xiaobo's prize, was that we should have been 
better Marxists, trusting in the ineluctable forces of 
modernization that would bring about political change. Instead, 
we were Hobbesians, believing we needed to prepare home defense 
against an increasingly cold and competitive world of enemies 
and invaders. Had we been more ready to respond to the good 
luck of history, perhaps some of the democratic regress that 
we've seen in Russia could have been avoided.
    China's in the same position today. It is easy to get 
carried away by the imagery of China challenging the West. But 
China is not a juggernaut. China is a juggler. Behind the 
assertiveness and the rhetoric is a country that is struggling 
mightily with the implications of development--social, 
environmental, financial, economic, cultural, and political. 
The West will retain its indispensability and will continue to 
do so, so long as it continues to represent basic humanistic 
impulses better than any other part of the world.
    The CCP [Chinese Communist Party] leadership is entering a 
delicate leadership transition in 2012. There are two visions 
of political reform competing within the leadership today. One 
of these associated with Premier Wen Jiabao who is making a 
sort of final crie de coeur before retiring in 2012 is what we 
might call grassroots democracy vision. Professor Economy, Dr. 
Economy has called this the Internet and Civil Society vision. 
This is a bottom up view of political reform. It stresses civil 
society, elections at the grassroots level and is some ways 
consciously modeled on the experiences of Taiwan. It will be 
represented in the new leadership by Xi Jinping who will be the 
party general secretary and perhaps depending on who else joins 
him by two others on the standing committee.
    The second vision is a more top-down view. It stresses 
party democracy. Ironically, this is the approach that 
Gorbachev himself adopted in seeking political reform in the 
Soviet Union.
    What is important about this debate, as Dr. Economy 
mentioned, the debate about political modernization is that 
China's Communist Party takes political reform seriously. They 
are divided on how to do it, but they believe they can maintain 
their rule through a constant innovation of governance and 
governing mechanisms. And to some extent that's true. The party 
has stayed in power longer than expected after 1989 by 
improving its governance, by processing passports more 
efficiently, by providing more open information, by 
liberalizing more internal migration. I think the mistake is to 
believe it can maintain its legitimacy forever through such 
governance reforms. That's where Liu Xiaobo comes in. His 
vision is the third vision of political reform. What Dr. 
Economy refers to as a revolutionary reform. What I refer to as 
the liberal democracy vision. It, of course, stresses the same 
aspects of universal rights and democracy that were raised in 
1989 and harkens back to the revolutionary thinking of the 
republic era prior to 1949.
    Liu is a reminder of this outcome that awaits China. Just 
as it is hard to imagine that outcome today, it was hard to 
imagine that in the Soviet Union of 1975. Liu Xiaobo helps us 
to focus on this China, not to imagine that the insecure and 
increasingly aggressive external China is the one of the 
future. He's a reminder that the reason we should not confront 
or contain China is not some relativistic argument that the 
Chinese are different or prefer tyranny to democracy, not that 
we need to reach some realistic accommodation with this titan 
of the East. Instead, we need to respond thoughtfully to the 
China of the current regime because we have faith that its days 
are numbered.
    Reagan, who came into office as a Cold Warrior 
extraordinaire, instinctively realized this about the Soviet 
Union and changed tack in his second term. Liu Xiaobo reminds 
us of the need to retain Dutch's infectious optimism about the 
fate of Communist regimes especially rapidly modernizing ones. 
He matters because he will appeal to our better instincts in 
dealing with China to celebrate positive change, to defend 
individuals and rights supporters, and to have confidence in 
the universality of freedom and democracy and their triumph 
everywhere, that's Liu Xiaobo's challenge to us. Thank you.
    Chairman Dorgan. Mr. Gilley, thank you very much. We 
appreciate your being here and your testimony.
    And, finally, we will hear from Mr. Kine.
    I welcome my colleague, Congressman Levin. Congressman, 
thank you for being here and we are about to hear from Mr. Kine 
who is the fourth witness and then we'll begin to ask some 
questions. Mr. Kine.
    [The prepared statement of Mr. Gilley appears in the 
appendix.]

 STATEMENT OF PHELIM KINE, CHINA RESEARCHER, HUMAN RIGHTS WATCH

    Mr. Kine. Thank you very much. I would like to thank you 
very much, the Commission, for your--you know, inexhaustible 
efforts to promote human rights in China and to expose the 
ongoing abuses that are occurring there, which today we're 
talking about the emblematic abuse of the rights of Liu Xiaobo.
    I guess the best way to get into this because I'm fourth 
here and there's been some really good information--I'm a 
little bit intimidated. But I'll just say that I think the best 
way to get into this is to talk about how Human Rights Watch 
works human rights in China and works with people like Liu 
Xiaobo.
    Wherever we work in 90 countries that we cover, we look for 
natural allies, people who support the same types of beliefs 
and ideals that we do; people who support peaceful evolutionary 
change who work tirelessly for universal rights and freedoms. 
And in China Liu Xiaobo has been the epitome of that. And in 
another society, Liu Xiaobo would be a natural leader in China 
for holding dear these views and for espousing them and 
articulating them so well.
    Unfortunately, in China Liu Xiaobo isn't particularly well-
known. His political critiques, his political writings, to a 
large extent have left him marginalized and censured. He is not 
the Thomas Freeman or the Christopher Hitchens of China. He is 
much less than that, unfortunately, on a public stage. And, of 
course, the Chinese Government has devoted massive financial, 
technological, and human resources to ensure that remains the 
case.
    Up until his--well, the only thing you would find about 
him, until recently after his sentencing would be state media 
reports behind the firewall about his sentencing. And so it's 
very difficult to get critical mass and get Chinese people to 
really have an idea of who he is. And the fact is that it's 
actually dangerous to be known in China as a supporter and 
someone who knows and respects Liu Xiaobo. We know that because 
the report that came yesterday from the Chinese non-
governmental organization [NGO], Chinese Human Rights 
Defenders, has updated us on information that more than 100 
people since the October 8 Nobel Prize victory have been 
detained, interrogated, or placed under house arrest merely for 
expressing support for Liu Xiaobo.
    Now, how does the Nobel Prize change this? What's the hope 
for change in this dynamic? Well, from the outset it looks a 
little bit intimidating because, of course, the Chinese 
Government has made sure that very few people really know about 
Liu Xiaobo. From the outset the Chinese Government, after the 
announcement of Liu Xiaobo's Nobel Prize, state media was 
silent. Chinese Central Television, Xinhua, said nothing. Even 
the nominally independent Phoenix Television in Hong Kong chose 
not to make any statement about that. The Chinese Government 
didn't make any statement, which means the vast majority of 
Chinese people who are dependent on state media for their 
information didn't know until the next day. And that was a 
short, terse statement from the Ministry on Foreign Affairs 
that identified Liu Xiaobo as a criminal and referred to the 
Nobel Prize award as profane.
    Now, since then the Chinese Government has only ramped up 
its propaganda offensive against both the Nobel Prize Committee 
and Liu Xiaobo. In short order, on the 14th Xinhua ran an 
article describing the Nobel Committee and the Nobel Prize as a 
``political tool.'' A few days later we had a Xinhua report 
describing the Nobel Prize--Nobel Committee as politically 
motivated, as politically biased. And then things really 
changed, and they really ramped it up on October 28. Xinhua ran 
a fairly sophisticated, almost a Fox News style ``expose'' of 
Liu Xiaobo called ``Who is Liu Xiaobo? '' And what it was, was 
a selection of quotations allegedly taken from a 30-year plus 
writing career which appeared to show Liu as someone who 
disrespected Chinese culture, as someone who appeared to be in 
the employ of foreign organizations working against China.
    Now, what does that mean? Well, what it means is that to a 
large extent the information that people get about Liu Xiaobo 
is pretty negative. But what's interesting is, we know that 
activists in China, in Beijing, have gone out onto the streets 
of Beijing, have gotten onto buses in China in Beijing and 
asked people, do you know about Liu Xiaobo? Have you heard 
about the Nobel Prize? To a large extent in the days after they 
didn't know. And the reflex answer from most people was that 
they were proud that a Chinese person had been honored in this 
way by an international organization with a prize as auspicious 
as the Nobel Prize.
    And the second thing is that even if they disagreed, if 
they knew something about Liu Xiaobo, had some idea of the 
media's smear campaign against him, they expressed support for 
his willingness and his right to express his ideas. So what 
does that mean?
    Well, looking farther down the road, we're looking at this 
idea of this debate that this award is prompting within China. 
Now, I think--and in the long-term we're probably going to see 
this, is that this attention the Chinese Government has placed 
on Liu Xiaobo, this vitriol is inevitably going to pique 
curiosity amongst people who have access to the Internet, who 
have Internet circumvention techniques so they can get 
information that's not state controlled, to find out more about 
him. Which means inevitably his ideas and the ideas embodied in 
Charter 08 are going to be disseminated far more widely.
    The second idea is, the Nobel Prize indicates, and the 
Chinese Government's reaction to it really shows how the 
Chinese Government miscalculated badly. This has really put the 
Chinese Government on the back foot. They did not expect this. 
They thought that when they dispatched a senior foreign 
ministry official to Norway to intimidate and browbeat the 
Norwegian government into not allowing the Norway Committee to 
give Liu the Nobel that they had won. But that hasn't happened. 
And the fact that this has happened has given an attraction for 
people within the government or the elites in society to 
express support for Liu Xiaobo and the ideas in Charter 08.
    One excellent example is within days of Liu's Nobel a 
public letter issued by 23 senior retired, former Communist 
party officials and intellectuals called Liu a splendid choice 
and called on the government to end its censorship regime.
    So these are--this is the beginning of a trend that we're 
going to see. Obviously the Chinese Government right now 
there's going to be discussion between moderates and the people 
who really fought for and won in terms of punishing Liu Xiaobo. 
There's going to be discussion in terms of how this can be 
handled.
    What the Liu Xiaobo Nobel has created for the Chinese 
Government is a running sore that's going to continue as long 
as he is imprisoned, as long as there's a new story that refers 
to imprisoned Chinese Nobel Laureate Liu Xiaobo this is a huge 
embarrassment for the Chinese Government. So the Hu Jintao/Wen 
Jiabao regime is passing on a real toxic legacy to the next 
group of leaders in 2012 that's going to force this new 
leadership of Xi Jinping and Li Kejiang to do a cost benefit 
ratio of whether it's worth keeping him in prison in the short-
term and the long-term in terms of their damage control. And in 
the longer term it's going to hopefully provoke more debate and 
more openness in the Chinese Government and more support for 
rule of law and obeying and respecting laws and the same 
principles in China's own Constitution that Liu Xiaobo has 
advocated.
    Thank you very much.
    [The prepared statement of Mr. Kine appears in the 
appendix.]
    Chairman Dorgan. Mr. Kine, thank you very much. We 
appreciate your being here.
    I wanted to mention at the outset a couple of things. 
Number one, this Commission, the Congressional-Executive 
Commission on China, maintains the most extensive database of 
those who are imprisoned or those who have been affected by 
actions of the Chinese Government and we have a database of 
5,500 Chinese citizens, 1,400 of them are currently detained or 
in prison, the remainder have been released, have escaped, have 
finished their terms, or died in custody. But we have 
maintained this extensive database which we think is very 
important in order that the world know that these are people 
who are not forgotten.
    And we have testimony here about the Internet, the 
difficulty that the Chinese Government is now having keeping a 
lid on the free flow of information. The extensive efforts they 
have made to censor the Internet traffic in China. And at a 
previous hearing just some months ago, we had a hearing at 
which we had representatives of Google, representatives of a 
company that registers domain names and others to talk about 
this very issue because I think that, perhaps more than any 
other issue, is going to determine what happens inside China. 
Are they able to effectively, in this new age of 
communications--are they able to effectively, for a long period 
of time, contain the information they want to contain behind 
the curtain? I think not.
    But I have a lot of questions here and I know my colleague 
will as well when he is back.
    First of all, Mr. Appiah, do you know Liu Xiaobo?
    Mr. Appiah. No, I don't. I mean, we communicate, usually, 
through the independent Chinese PEN Center of which he's the 
ex-president and through in particular, Tienchi Martin-Liao who 
is their current president. She's an exiled Chinese writer.
    Chairman Dorgan. Is he able to communicate, and if so, how 
can he communicate while he's in prison?
    Mr. Appiah. Not now. I mean, he was. His wife, Liu Xia, was 
visiting him regularly, as you know, as I mentioned, she's not 
been seen since the 20th of October by anybody. So we don't 
know when she'll be able to meet him next. But she was able to 
tell him about the prize. She was able to go and tell him. And 
he, in a characteristic way, I think, responded by dedicating 
it to the--what he called the martyrs of Tiananmen and also 
weeping.
    Chairman Dorgan. Now, a number of you have made the point 
that Premier Wen has made certain statements and 
representations that seem pretty unusual and nearly 
unbelievable given the circumstances. But you've also indicated 
that the Chinese Government itself has taken steps to censor 
those expressions. Can you give me a little more information 
about that? What do we know about that censorship? Just that 
steps were taken to try to prevent most of the Chinese people 
from hearing what Premier Wen said, is that----
    Mr. Appiah. Well, the parts--I mean, you quoted, I think, 
from an interview that he did on CNN----
    Chairman Dorgan. Yes.
    Mr. Appiah [continuing].--with Fareed Zakaria. I believe 
that the parts--those parts of that interview are not available 
in the transcription that the Chinese people can see. So----
    Chairman Dorgan. And then we conclude from that that the 
Chinese Government has affirmatively decided to exclude them, 
is that----
    Mr. Appiah. Yes, I mean, it's part of the sort of irony of 
the present situation. Because there's a dispute going on 
between the various positions within the regime it's possible 
that they don't, you know--as though one part of the apparatus 
can decide that it doesn't want another part of the apparatus 
to be seen within China and so they may have asked him, they 
may not. But they certainly have took it off the----
    Chairman Dorgan. Dr. Economy, did you want to----
    Ms. Economy. I would add that Southern Weekend ran a 
summary of Premier Wen's interview with Fareed. Hu Shuli from 
Caixin has referenced his remarks openly. While the full text 
may not be available easily to the Chinese public there are 
ways to go around the firewall and get access to CNN or many 
other sites with access to the full set of his remarks. There 
have been media in China that have referenced it and talked 
about what he said. In some forms, his remarks are in the 
public domain.
    Chairman Dorgan. And it represents the internal struggles. 
Let me ask about corruption. You indicated that the reforms 
that some leaders in China want are to root out corruption. 
What kind of corruption are you referring to?
    Ms. Economy. Corruption is at the root of virtually any 
challenge that China faces today. If you're looking at land 
appropriation, environmental protests, or other social 
instability throughout the country, the issue that's driving it 
fundamentally has to do with officials behaving corruptly, 
whether appropriating money or appropriating land. The 
government recognizes this and there is some effort by people 
to campaign against corrupt officials by rooting them out 
wholesale. Increasingly, however, those in the Chinese 
Government are realizing that the way to root out corrupt 
officials is, again, by working with NGOs, offering public 
disclosure of data, and working through public consultation.
    So Beijing is beginning to try to find a way--still by 
maintaining the primacy of the party--to increase transparency 
and official accountability within the system.
    Chairman Dorgan. Would corruption include the judicial 
system that decides to send Mr. Liu to prison?
    Ms. Economy. Absolutely. In many instances protests within 
China don't simply occur because something happens to somebody 
one day. Oftentimes protests come after groups of people have 
already sought redress through the legal system to no avail. 
The protest may come after one or two years' worth of seeking 
redress, until people's frustrations erupt.
    Chairman Dorgan. It's interesting, I was in Hanoi, Vietnam 
at one point and met, among others, the Chamber of Commerce, 
American Chamber of Commerce, AmCHAM, and the American Chamber 
of Commerce in Vietnam had a very unusual message for me. They 
said, ``We need more government.'' Not something you hear from 
Chambers of Commerce very often. And I said, ``What do you mean 
by that?'' They said, ``This is a country that's a Communist 
country attempting to develop a market system. But in order for 
a system to work, you've got to have government. You've got to 
have administrative practices and, you've got to have courts 
that will enforce contracts.'' They went through a whole series 
of things. And it is the case that you need all of that and you 
need to have confidence in that before you risk your 
investments and so on.
    So, that happened to be Vietnam. I assume the same 
circumstances exist in China as it moves with a Communist 
government toward a market system. It's now moved in that 
direction for a good number of years.
    Mr. Gilley, you indicated that the issue is for us to 
respond thoughtfully to China. And I guess I want to try to 
understand, because you indicated that you have an effervescent 
sense of optimism that things are going to change and 
ultimately the Chinese people will throw the boot off their 
chest--the boot of Communism off their chest and we will see 
some other kind of approach that moves more in a democratic 
system. What--and maybe you're right. I don't know. I mean, I 
think we need to continue to try to hasten that along to the 
extent that we can through our sets of policies. But what is 
your view of how we respond thoughtfully to the Chinese--the 
current Chinese Government?
    Mr. Gilley. Great question. First of all, I think it's 
important not to mistake efforts, namely the efforts of the 
regime to censor, to jail a thousand people, for the overall 
state of information or political freedoms in China. Indeed, 
the efforts are a response to the increasing inability to 
manage information.
    If human rights were as bad today as they were 20 years 
ago, I would guess that a third of the population would need to 
be jailed for what they do today. So the regime--the response 
of the regime can't be mistaken for what's going on in China. 
It's precisely because they've lost the ability to control 
information. They've lost the ability to limit discussions of 
political reform, human rights. People like Qin Xiao, prominent 
retiring Chairman of China Merchants Bank, one of the five 
major state banks, goes to Xinhua University last--in June and 
issues a clarion call for implementation of universal values, 
human rights and democracy. So the important thing to do is to 
not mistake----
    Chairman Dorgan. Did anything happen to him?
    Mr. Gilley. No. No. He's now a hero and is widely discussed 
and is making a second career now as an advocate of universal 
values and human rights in China.
    Chairman Dorgan. Might you think if he threatens the 
government of China might they decide that he should join Mr. 
Liu?
    Mr. Gilley. I'd say if he organizes a group he might find 
himself in trouble. But the idea of saying that is acceptable, 
that that speech is widely available online. And I must say Wen 
Jiabao has been calling for political reforms, democracy, and 
human rights since at least 2007 when he issued a People's 
Daily editorial on that topic. Earlier this year he issued a 
memoir essay on his time with the Party General Secretary Hu 
Yaobong--Hu Yaobong has been a person who is not discussed 
publicly for many years. He's now been rehabilitated in part 
because of Wen Jiabao. So parts of Wen Jiabao have been 
censored. And I think that the censoring of his speech in 
Shenzhen was simply because the Party General Secretary Hu 
Jintao was coming the next week, and it was his speech which 
was going to be the official speech. Lots of pro-reform 
statements from Wen Jiabao are easily available to Chinese 
Internet readers and online readers.
    So my point is that it's precisely because they've lost 
control of the ability to manage political speech and 
information that we see this stepped-up effort to try and plug 
the holes in the dam. But we have to focus, I think, on what's 
happening to the dam rather than the holes they're trying to 
plug. So my question is how to respond thoughtfully? Well, this 
has to do with how we view China internationally and being 
aware that policies we adopt with respect to China's 
international posture, it's security posture in the South China 
Sea, it's security posture with respect to Taiwan, it's 
currency manipulation. That we have to think carefully about 
the implications of those policies on domestic reform in China 
and in part to realize that Chinese people are less interested 
and indeed don't want their country to become an international 
pariah.
    It's exactly as Mr. Kine has said, they're very proud to 
get the Nobel Peace Prize, they want their country to be a 
respected country. And responding thoughtfully for China means 
in some ways trying to respond to China's need for 
respectability and for acceptance, and that's really what is 
driving the international politics of China.
    Now, how you do that in concrete terms we can discuss for a 
long time. But the point is that just as we in some ways 
mistook what was happening in the Soviet Union in the 1980s, 
we're in danger of mistaking what's happening in China today.
    Chairman Dorgan. I have a couple of more questions then I'm 
going to call on my colleague. I would observe that there is no 
question that things have changed in China for the vast 
majority of the Chinese people in a positive and beneficial way 
over the last 20 years. There's no question about that.
    I would also observe that the issue of human rights is for 
Mr. Liu or Mr. Gao or others as bad as it was 20 years ago 
today because in both cases--in Mr. Liu's case he's in prison, 
we're not quite sure what they've done with Mr. Gao at this 
point. But for those for whom the Chinese Government has 
decided to take action and trump up charges and throw them in a 
dark cell somewhere, and not to be heard from by the rest of 
us, the human rights situation is abysmal, not changed at all.
    Mr. Kine, you talked about that there's even some support 
among government officials and then you described some retired 
government officials which is a little different. You were 
talking about statements by some retired government officials. 
I assume the testimony we've heard from others here is that 
inside the Chinese Government itself they are struggling to try 
to determine where are we headed and how do we contain what we 
know to be the most significant threat to our regime and that 
is the free flow of information and what it does to incite the 
thirst among the population for freedom and the capability of 
free speech, human rights and so on.
    So, give me your assessment of what you think is happening 
inside the government?
    Mr. Kine. Excellent question. I'd like to start by echoing 
what Mr. Gilley said, and your comments, you know, we are the 
first to say that things have changed for the better over the 
last 20-30 years in China in terms of human rights. It's a much 
better place. But I think moving into your question, the record 
really shows that from early 2007 human rights in China have 
really been under attack. And what we've seen and what we have 
documented and what you have documented in this Commission is 
that it appears that within the government that the security 
agencies have been in the ascendant. This is a--probably a 
result of both the government's response and shock at the 
ethnic unrest in Tibet in March 2008 which was compounded by 
the bloody ethnic violence that occurred in Urumqi, Xinjiang in 
July 2009. So to a large extent this means that the 
government's response to citizens' legitimate quest for access 
to human rights, and particularly those with high profiles who 
are seen as threatening as with reference to those with the 
comments who might be able to form movements or groups have 
been targeted--high profile dissidents.
    I think it's important to note that reform in China--it's 
really not--it's not rocket science. I mean we can talk about 
it for days, but the bottom line is we're talking about rule of 
law. We're talking about the Chinese Government respecting its 
own laws, respecting the tenets and the principles embodied in 
it's own constitution. It's not something the United States, 
the EU, or the international community is trying to impose on 
China. It's China's own laws and principles.
    So I think the important thing for us to realize is that 
what we're dealing with in terms of this idea of reform and 
what's going on in the government is overall the--you know, the 
overarching main concern and obsession of this government which 
is the world's first evolutionary Communist Party is 
maintenance of power. They want to maintain their 61-year 
monopoly on power and they will do anything that they need to 
get that done. And so in terms of--so are there voices? Are 
there more moderate voices from the government? Obviously.
    Okay. Are they in the ascendant? Absolutely not. This is a 
government that, as you can see from its furious reaction to 
the Nobel Peace Prize of Liu Xiaobo, something that, to a large 
extent could have not gone away, but could have been much 
better handled if they'd just shut up about it. You know, this 
indicates a government that is not particularly confident, that 
is concerned about where it's going and what the threats are to 
its own power.
    So in the end what does that mean? It means that reform in 
China comes down to the same meaning, the same currency as 
words like harmony and stability. These are shorthand for 
mechanisms for the Chinese Communist Party to identify 
potential threats to its power, to target them, to silence them 
and to make sure that they maintain that power.
    Chairman Dorgan. One last question then I'll call on 
Congressman Levin.
    Ms. Economy, I think I've heard two different views here, 
one Mr. Kine says we have a Communist government--a government 
that is going to do everything it can to retain its power. And 
I think Mr. Gilley's feeling is it is inevitable over time that 
things will change in China in the direction of greater human 
rights. Your assessment of those two issues.
    Ms. Economy. I think they're both right. As I suggested 
earlier, the party's efforts at reform are largely toward 
modernization. How do we make the party more effective? How do 
we bring in transparency and official accountability, and to 
some extent the rule of law without challenging our own 
authority for the next 60 years? At the same time, I think Dr. 
Gilley is right that looking ahead, it is going to be 
impossible for them to do that. This is in large part because 
there are forces within the Party that think differently.
    As for the media as a whole--one of the interesting things 
about that group of retired officials, if you look at the list 
of signatories that sent the letter to the Standing Committee 
of the National People's Congress--calling for freedom of 
speech and an open press, you will find many former senior 
media officials, people who 15 or 20 years ago we would have 
thought were the ones responsible for controlling information. 
You can see that some place deep inside them, even as they were 
controlling information, they actually were interested in 
releasing more information.
    It is therefore difficult for us to assess what people are 
actually thinking, believing, and arguing for behind the 
scenes, when based solely on what we see in public 
documentation. Because of the Internet, because of domestic 
pressures emanating, and because of forces within the party, I 
do think that Dr. Gilley is right. There is going to be change.
    Chairman Dorgan. Thank you very much. Prior to this 
Congress the lead on this Commission was Congressman Levin. 
He's done a lot of work in this area and a lot of really good 
work. So Congressman, it's good to see you here.
    And I'd just mention to you that Dr. Appiah, as I mentioned 
in his introduction, is one of those who had recommended Liu 
Xiaobo for the Nobel Peace Prize. I'm sure he must feel pretty 
good about that recommendation. But I appreciate your being 
here. Why don't you proceed?
    Representative Levin. Thank you, Mr. Dorgan. I'm so glad 
that you called this hearing. And you've been so devoted to the 
work of the Commission. I prepared an opening statement which 
I, of course, will not read, and I ask that it be submitted for 
the record.
    Chairman Dorgan. Without objection.
    [The prepared statement of Representative Levin appears in 
the appendix.]
    Representative Levin. I do in the statement cover this 
imprisonment of Liu Xiaobo. And also I talk about the work of 
the Commission and I thank the increasingly valuable, if I 
might say, invaluable work of the Commission and all of its 
talented staff. And I discuss to some extent the database, the 
political prisoner database which is increasingly utilized and 
I think validates its creation.
    But let me just ask a question. I'm sorry I have to kind of 
pick up at this point. I said at the beginning of my statement 
that Liu Xiaobo's imprisonment is a personal tragedy, a 
national shame, and an international challenge. So let me just 
follow up, I haven't been to China now for quite a few years. 
And you've said, some of you, that they seek international 
respectability, and also that it's a much better place for 
human rights--much better.
    I don't know how all of this fits together. If they seek 
international respectability and imprison somebody who is 
speaking up and expressing his views, I don't quite know how 
they expect to attain international respectability.
    And number two, if it's really a much better place, I don't 
know how that fits into this imprisonment because I think the 
signal that it sends is that if anybody speaks up and is likely 
to make a difference, you'll end up in prison. And in terms of 
the international challenge, I think all of this graphically 
raises the question as to what we do. So I think you've already 
covered some of this ground, but how does this all fit 
together? And why don't we go right to left?
    Thank you very much for coming.
    Mr. Kine. Thank you very much. Thank you for your question. 
Let me start by talking about, yes, what is this, there seems 
to be some contradictions here.
    Well, let's take a look at the record. I mean, 20-30 years 
ago what rights do Chinese--most Chinese people--Chinese people 
have that they didn't have back then? Well, now human rights is 
now enshrined in China's Constitution. People are able to----
    Representative Levin. It was in the Soviet Constitution, 
too.
    Mr. Kine. People are able to legally buy and own property. 
Okay. People are able to have passports and travel. People are 
able to access at least portions of the Internet. People have 
freedom of internal mobility which they did not have, to the 
extent of which they didn't have 20-30 years ago. So I think 
the key idea to remember in terms of how things have changed, 
but how things seem not to have changed with Liu Xiaobo's 
imprisonment is that there are red lines and gray lines that 
citizens are not supposed to cross. And so the unspoken compact 
that the Chinese Government has made with the Chinese people in 
the 30 years of reform and opening is that you can go out, 
prosper, multiply, make money, but be quiet. Don't push the 
envelope in terms of asking for rights in terms of voting, 
elections, don't ask us to do things that could make us think 
that you're a threat to our maintenance of power. So this is 
the dynamic that we're looking at.
    Representative Levin. But some of those references are 
really more to economic rights than to human rights.
    Mr. Kine. Exactly. But to the vast majority--to most 
Chinese people you have to remember that, you know, this is--
the 20th century was an absolute catastrophe for the Chinese 
people. We've had the civil war, the Great Leap Forward, the 
Cultural Revolution, you know, Chinese people are at a place 
now where they've had extended peace, an extended period which 
has been absent of the dreaded chaos which haunted their 
fathers, their grandfathers. So they are grateful and they 
understand that this is a special time. And they are willing--
to a large extent most Chinese people are willing to accept 
that status quo.
    Representative Levin. I mean, that's--we could discuss 
that, but that isn't quite the same as saying it's a much 
better place for human rights. I mean, the fact that they can 
move, the fact that they can get a passport under certain 
circumstances doesn't--and the fact that these changes are 
popular with the people--that all doesn't mean that in terms of 
human rights it's a much better place. Unless your definition 
of ``human rights'' is so broad that it encompasses virtually 
everything. I mean, it's surely a better place economically for 
huge numbers. But I think his imprisonment really sends the 
signal that, in terms of the basic human right of expression, 
it isn't a much better place.
    Mr. Kine. I think it's significant to--and I don't want to 
look like I'm defending the Chinese Government's human rights 
record, but I think that it's significant that we're talking 
about one person who obviously is emblematic of wider abuses, 
but the fact is that we no longer see except in areas such as 
Tibet and Xinjiang, you know, mass arrests. To a large extent 
most Chinese citizens don't need to worry about the general 
issue of kicking in the door just for sitting around the 
kitchen table criticizing the government. It's only when they 
cross these red and gray lines, when they start to mobilize, or 
look like they are forming networks or groups which could be 
seen as a threat to the government, when they cross that line 
and are under a threat and under persecution.
    Representative Levin. Of course, in Myanmar it's ``just one 
person,'' and she symbolizes what's true for anybody who tries 
to do what she did. And doesn't his arrest, his imprisonment 
with essentially the house arrest of his wife indicate to 
citizens throughout China, if you try to do anything like he 
did, you'll have the same fate?
    Mr. Kine. That's the message in the lesson, exactly.
    Representative Levin. So therefore, it isn't necessarily a 
much better place for human rights?
    Mr. Kine. You know----
    [Simultaneous conversation.]
    Mr. Kine. I think the key message is that we really need to 
look at China realistically. And I think that we need to give 
the Chinese Government credit where credit is due in the sense 
that life is much better for the vast majority of Chinese 
people than it was 20, 30 years ago. It is no longer a 
totalitarian state in which millions are in poverty and which 
millions are subject to forced migrations. I mean, if we're 
going to talk about changes over time, that's what we need to 
discuss. I'm happy to talk with you all day about the abuses 
that are occurring in China today. But when you ask for a 
comparison from past to present, it's really important to say 
things are better for the vast majority of Chinese people. 
People no longer--to a large extent don't live under a sense of 
palpable fear. Okay. They don't. The vast majority don't. It's 
only those who push the envelope who violate this unspoken 
compact and want access to those rights and freedoms which we 
at Human Rights Watch and which you here on this Commission 
advocate for so strongly, freedom of media, freedom of 
association, freedom of expression. Those are and remain bit 
problems in China. But the status quo today is far better than 
it was 30 years ago and it's important to recognize that.
    Representative Levin. I think we do. But the essence of 
this hearing is those issues that you mentioned. We're not 
discussing their economic policy.
    [Simultaneous conversation.]
    Representative Levin. Who else wants to chime in? Go down 
the line.
    Mr. Gilley. I think we can restrict ourselves to political 
and civic freedoms and note that there have been vast 
improvements. More than 1,000 people signed Charter 08 and 
continue to go about their daily lives without interference or 
police surveillance of any sort today. So for those people the 
right to express support for that charter has been realized. 
That's political expression. There are----
    Chairman Dorgan. Can I just--I apologize for interrupting--
--
    [Simultaneous conversation.]
    Chairman Dorgan. Could I ask a question on that point? I 
thought I had heard previously in the testimony that about 100 
of those who have signed have been detained or have been 
otherwise tracked by the government. So, I mean, if you've got 
1,000 people that sign and 900 are not bothered, but 100 are 
detained, that's really not progress; is it?
    Mr. Gilley. Well, I think--I don't know what the numbers--a 
number of people were questioned, brought in, asked, put under 
surveillance, I think the number of people who have been 
imprisoned for their part in Charter 08 is, I believe, a few, 
including Liu Xiaobo. To me if that number of people can issue 
support for such a clarion declaration of liberal democracy, 
that is--that is something they could not have even imagined 
doing 10 years earlier.
    Second of all, I think you have to think carefully about 
the policy toward Liu Xiaobo. The likely end game for him is 
exile. And I think from his standpoint that would be a 
wonderful outcome, he would be able to live freely and express 
himself.
    Representative Levin. Why don't they do that tomorrow?
    Mr. Gilley. I think they will shortly. I mean, I don't 
know, this year, next year. But they do crave international 
respectability. Liu Xiaobo will continue to be a thorn in their 
side. They will calculate, as they did previously with people 
like Wei Jingsheng that it's simply not worth it. They know 
that exile implies irrelevance for Chinese dissidents and he'll 
be sent abroad.
    That will respect--that will reflect a sensitivity to 
international opinion. It will also reflect the fact that 
they're aware of how easy it is to marginalize dissidents 
through exile or silencing. The point is to keep in mind that 
this gray line has to do with forming an organization that 
could challenge the party, challenge its leadership. That's the 
line that hasn't moved. Of course it should move. International 
human rights suggest China is under obligation to not jail 
people for organizing peacefully. But, nonetheless, represents 
a substantial increase in freedom compared to 20 years ago.
    You asked about international policy. All I'd say is, my 
point is, the important approach to China that we need to adopt 
is to maintain consensus with allies in dealing with China on 
international issues. So we're careful, and I think the 
administration has done an excellent job on the South China Sea 
in acting with our allies in Southeast Asia in standing up to 
China's territorial claims in that region, making sure that 
that is seen not as a U.S. policy, but as a regional policy, a 
regional response. Likewise in our treatment of human rights in 
China, we need to be aware that we have allies in particular in 
the rest of the Western world who have similar concerns and 
work in coordination with them in dealing with China.
    The point is not to reestablish a cold war mentality, or 
more specifically allow China to use a cold war international 
opinion climate to justify continued repression at home.
    Representative Levin. In terms of cold war climate, I think 
there's agreement. But you can use that argument to essentially 
respond very little.
    All right. Let's keep going.
    Ms. Economy. I'll briefly address each of your three 
questions. First, how does China balance its desire for 
international respect with its decision to imprison a Nobel 
Peace Prize winner? I think it weighs the costs and benefits. 
In the case of Liu Xiaobo, the challenge to its own rule 
outweighs its desire for international respect. It's a simple 
calculation. In the eyes of China's leaders, it's far better to 
imprison Liu than it is to let him speak freely for the sake of 
international respect.
    Second, is the situation in China better now than it was 20 
years ago? We've heard good argumentation for why it is in 
terms of the expansion of economic opportunities. It would be 
interesting to look at what was going on between 1986 and 1989 
in terms of the flowering of ideas. This was the time of Zhao 
Ziyang, and in 1987 there was a movement during the 13th Party 
Congress toward political reform, marking the first time there 
was a slate of ideas put forward on political reform.
    All the arguments here are probably correct. I think it's 
worth a serious look, however, to think back 20 years or so at 
the ideas that were flowering about political reform and 
compare that to what's happening now.
    Finally, what do we do? In my written testimony and oral 
remarks, I make four recommendations. One, individual support 
for people like Liu Xiaobo or Hu Jia and others; the United 
States has to continue to press when President Obama and 
Secretary Clinton meet with their counterparts. Second, 
continue to work on all of those programs that promote 
transparency in the rule of law and we have a lot of them 
underway now.
    I was just talking with Jennifer Salen, who works for the 
American Bar Association, and those rule of law programs are 
hugely important.
    Dr. Gilley is correct that we have to be careful not to box 
China into a corner. Putting pressure on China is important, 
however, because China responds to pressure. If you don't 
pressure them, if you step back, they will take full advantage 
and press forward. Indicating to China, for example, that what 
they do domestically has global ramifications is important. We 
need to point that out continuously.
    Last, it's been interesting to see how the Chinese press 
has reported on elections in Vietnam or Burma/Myanmar. To the 
extent that we can push forward on political reform in other 
Asian countries, in particular, that also will bring pressure 
to bear on China because it's embarrassing to them.
    Mr. Appiah. Thank you very much, Cochairman, Congressman 
Levin. I just wanted to say a couple of things. One is, it is 
important, I think to mention, by name, the people who are 
currently being harassed as a result of the Nobel Prize in 
particular. So I want to mention that Guo Xianliang in 
Guangzhou is actually under criminal charge now for inciting 
subversion of state power for circulating that document that I 
asked to have entered into the record. So there's a real--there 
are individuals here and also Ye Du or--well, his pen name is 
Ye Du, his real name, as it were is Wu Wei, who is the network 
committee coordinator and Internet expert for the Independent 
Chinese PEN Center which is the corresponding organization to 
ours in relation to China has been taken in for questioning, 
his house was raided, they confiscated PCs and CDs including 
information about a Congress that I had the honor of attending 
on behalf of the American PEN Center in Tokyo a month--a week 
before the Prize where we--all of us from 100 countries voted 
for a resolution condemning the Chinese Government for its 
treatment not just of Liu Xiaobo but of named other people. I 
mean, some 10, a dozen, 20 other people whose names we know who 
have had their fundamental rights of free expression limited in 
one way or another. There's more than one member of the ICPC in 
prison today essentially for free expression offenses. So I 
think it is important to underline the point that not just--
it's not just Liu Xiaobo as you said, you have a list of 1,400 
people in prison, but just in relation to his Prize, there are 
people who are currently under criminal charge simply for 
circulating the information, the truth, that he won this prize.
    On the question of sort of what we should be doing, I'm a 
philosopher and not an expert on foreign policy, but I happen 
to have written a book recently about the ways in which 
foreigners influenced China in the late 19th century and I do 
think this question of--this question of holding the regime's 
feet to the fire about Chinese honor, about the respectability 
of their country, there's a historical precedent for thinking 
that that will work eventually. It worked with foot binding in 
the late 19th century and early 20th century, I believe. It's 
arguable that it worked in relation to opium there though the 
issues there are somewhat different.
    So I think that this is very important. I'm an American 
citizen, but I have three sisters who are not and they live in 
three different African countries and in every one of those 
African countries China has interests that have to do with 
economic interests. And they're trying to mine in these 
countries to take resources out of them and they need to be 
well respected in order for those countries, some of which are 
seriously democratic places, like Ghana where my youngest 
sister lives, the people care--ordinary people care about 
whether they're dealing with a government that's respectable, 
that's worthy of respect. Ordinary people in these places care.
    To the extent that we can make it clear to those in the 
regime who are resisting change that this will be extremely 
costly to them, not just in their dealings with us, though that 
should matter to them, but in their dealings with absolutely 
everybody in the free countries of the world. I think that's 
something that we can do and it will resonate because Chinese 
people care about China being respected as has been mentioned 
all the time, as Americans care about the United States being 
respected, of course. It's a normal part of the psychology of 
someone who cares about her country. So I believe that that's a 
very powerful weapon. And I don't think we should back off. 
It's perfectly consistent, both to do that and to say, that is 
not a cold war issue, we are not--we don't hate China, this is 
about caring about the Chinese people. It's not about being 
against them, it's about being in favor of them. And it's about 
helping them to move forward. In the end they will only move 
forward if the Chinese people themselves are allowed to or 
choose to or mobilize themselves to move forward. But we can 
help as we have helped in the past and as this country was 
helped in our revolution by people from outside the colonies.
    This happens all the time in world history. All the time 
people in one place can help people in another place move 
forward. And I believe we should do that, we should stick with 
that, we should not back off because we're worried about their 
threats to make us pay costs in terms of trade or something. 
They can't afford to do that really and it's very important, I 
think, that we stick to our principles, principles that are 
universal principles and principles that are largely present in 
the Chinese Constitution itself. Though, of course, the Chinese 
Constitution does protect the privilege of one party which is 
not something that I believe should be part of our 
international practice.
    Chairman Dorgan. You know, I'm thinking about our response 
to apartheid and the years in which we very aggressively, in 
most cases, said we will not sit idly by and say it doesn't 
matter. It does matter to us and we'll take appropriate actions 
and apply appropriate pressure to the extent that we can, 
whatever mechanisms we have to try to affect change.
    I was thinking also about the gray line you just described 
about organizations that the Chinese Government might well 
think could threaten them. And in the case of Mr. Gao who we 
have worked on and discussed at some length, he was not forming 
an organization. He was a lawyer who was supporting in court 
and taking cases for people who were charged with human rights 
violations. And so that's a circumstance that's well outside of 
the gray line that you've described.
    It's really interesting to me and I suspect to Congressman 
Levin to listen to four people who study an area intensely, 
understand it in substantial detail, we have the attention span 
of gnats, you know, we just--in the Congress. We try to learn 
as much as we can and try to keep up with a lot of issues, but 
100 issues come at you in a week. So we're not Asian scholars. 
We're not working in areas where you work. But your ability to 
come and give us perspectives from four different points on the 
compass, as Asian scholars, is really interesting to me. I 
mean, there are differences, obviously, nuanced differences in 
how you interpret and make judgments about things. But this has 
really been interesting for me to be able to hear your 
presentations today. And some of you have come some long ways 
to be here and I admire--I didn't mention how much I admire 
Human Rights Watch. You know, I don't--I don't know how much 
money you make working for them, but my guess is you've not 
chosen a life of wealth, you've chosen a life of advocating on 
behalf of an organization and people around the world. I just--
I admire all that you do--all four of you, and the work that 
that represents.
    I do want to just finally mention today that Charlotte 
Oldham-Moore--if I get her name right--has worked with me for 
some while--some long while as the Staff Director of this 
Commission and has now left and is now working in the State 
Department. And she's going to do well there as well. She's an 
extraordinary talent and this Commission was very blessed to 
have her work with us. And Doug Grob is similarly someone who 
has been Staff Director for us and will now continue in 
Charlotte's stead. Doug does extraordinary work. So we've got a 
couple of people plus a larger staff, all of whom speak 
Mandarin, all of whom study what is happening, trying to 
understand for this Congress and interpret for the Congress and 
the Executive Branch what are the changes, what are the 
nuances, what can we expect? What does it mean? What are the 
hints that we get?
    I think all of you have said, properly so, China is going 
to be a significant presence in the life of the United States 
going forward. The question is, what kind of presence and to 
what effect? And so for someone to suggest we take our eye off 
this, we'd be fools. We need to--we're going to live in a 
future and in a life with China as a significant presence and 
it's in all of our interests to try to pressure and prod and 
continue to apply the right kind of approach to move China in 
the right direction.
    Congressman, I said when I started, there's only one reason 
that I wanted to hold this hearing today. And that is because 
the Chinese authorities have a Nobel Peace Prize winner behind 
a prison door. And that ought to be a profound embarrassment to 
them. And to the extent that we can hold up for the world the 
absurdity of that circumstance I want to continue to try to do 
that.
    Mr. Gilley may well be right that they may exile Liu 
Xiaobo, I don't know. But my hope is that whatever the fate of 
Mr. Liu Xiaobo, whatever his fate, I hope that very soon he's 
released from a Chinese prison. This man ought to be 
celebrated, not imprisoned.
    So, let me thank all of you. Congressman, thank you very 
much and this hearing is adjourned.
    [Whereupon at 12:03 p.m., the hearing was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Kwame Anthony Appiah

                            November 9, 2010

    Chairman Dorgan, Co-Chairman Levin, Members of the Commission:
    My name is Professor Kwame Anthony Appiah, and I have the honor of 
being President of PEN American Center. I am very grateful for the 
invitation to speak to you today. Our center is one of the 145 
centers--in more than 100 countries--of International PEN, the world's 
oldest literary and human rights organization. For nearly 90 years we 
have sustained fellowship between the writers of all nations and 
defended free expression at home and abroad. More recently, we have 
worked with particular assistance from our colleagues in the 
Independent Chinese PEN Center (ICPC), to advance the cause of free 
expression in China. Part of this effort has involved supporting our 
colleague Liu Xiaobo, who served as President of ICPC from 2003 to 
2007, held a seat on its Board until late 2009, and remains an Honorary 
President. In late January 2010, in connection with our support for him 
and the cause of democracy in China, I wrote to the Norwegian Nobel 
Committee, to urge them to give serious consideration to him as a 
candidate for the Nobel Peace Prize. I was not, of course, alone in 
doing this. Vaclav Havel, President of the former Czechoslovakia, and 
Nobel Laureate Desmond Tutu of South Africa, among many others, made 
similar appeals. If I may, I would like to summarize briefly the 
arguments I made in that letter on behalf of my organization.
    On December 25, 2009, a Beijing court sentenced Liu to 11 years in 
prison and an additional 2 years' deprivation of political rights for 
``inciting subversion of state power.'' This so-called incitement, the 
verdict made clear, consisted of seven phrases--a total of 224 Chinese 
characters--that he had written over the last three years. Many of 
these words came from Charter 08, a declaration modeled on Vaclav 
Havel's Charter 77 that calls for political reform and greater human 
rights in China and has been signed, at considerable risk, by more than 
10,000 Chinese citizens.
    Liu Xiaobo has a long history as one of the leading proponents of 
peaceful democratic reform in the People's Republic of China. A poet 
and a literary critic, Liu served as a professor at Beijing Normal 
University and was a leading voice and an influential presence during 
the student protests in Tiananmen Square in 1989; indeed, his 
insistence on nonviolence and democratic process are widely credited 
with preventing far more catastrophic bloodshed during the subsequent 
crackdown.
    Liu's writings express the aspirations of a growing number of 
China's citizens; the ideas he has articulated are ideas that are 
commonplace in free societies around the world, and while the Chinese 
government claims they are subversive they are shared by a significant 
cross section of Chinese society. Charter 08 itself is a testament to 
an expanding movement for peaceful political reform in China. This 
document, which Liu co-authored, is a remarkable attempt both to engage 
China's leadership and to speak to the Chinese public about where China 
is and needs to go. It is novel in its breadth and in its list of 
signers--not only dissidents and human rights lawyers, but also 
prominent political scientists, economists, writers, artists, 
grassroots activists, farmers, and even government officials. More than 
10,000 Chinese citizens have endorsed the document despite the fact 
that almost all of the original 300 signers have since been detained or 
harassed. In doing so they, too, exhibited exceptional courage and 
conviction.
    We all recall the period of the Cultural Revolution, in which 
millions were uprooted, millions died. We should acknowledge that there 
has been substantial progress from that horrendous nadir. We know, too, 
that there are voices within the regime, urging greater respect for 
free expression. China wants--and needs--to be heard in the community 
of nations. I--and all of my PEN colleagues--believe in a cosmopolitan 
conversation in which we hear from every nation. But we also believe we 
must let China's rulers know that we can only listen respectfully if 
they offer to their own citizens the fundamental freedoms we all claim 
from our governments. This is the right moment for the world to show 
those in China who do not understand that history is on freedom's side 
that all the world's friends of peace and democracy are watching. And 
that is why this was the right moment to give this peaceful campaigner 
for democratic freedoms the Nobel Peace Prize.
    Since the announcement of the Peace Prize, the government of China 
has behaved with exactly the sort of contempt for the rights of her 
people that Liu has long protested. The Chinese Communist Party has 
demonstrated that it remains unfortunately willing to revert to its 
most unattractive traditions.
    The Chinese government blacked out television broadcasts on CNN and 
the BBC and the French station TV5 that reported Liu's Nobel Prize. 
They censored sites on the Web that mentioned him or published Charter 
08. Indeed, comically, they have censored references to free expression 
in the recent speeches of Wen Jiabao. Much less comically, they have 
harassed Liu Xia, Liu Xiaobo's wife, destroying her cell phone, 
surrounding her house and placing her effectively under house arrest. 
Her friends and family have not been able to be in touch with her since 
October 20th.
    The Chinese authorities have also stepped up pressure on members of 
the ICPC as part of their campaign to limit information about the 
awarding of the prize. Since the prize was announced on October 8, 
dozens of ICPC's China-based members have been visited by police and 
harassed and several of its leading members are living under virtual 
house arrest. On November 2, Wu Wei (whose pen name is Ye Du), ICPC's 
Network Committee coordinator and the organization's webmaster, was 
summoned for questioning by the Guangzhou Public Security Bureau after 
Internet writer Guo Xianliang was arrested for ``inciting subversion of 
state power'' on October 28 for handing out leaflets about Liu's Nobel. 
Police reportedly believe that Wu Wei is behind the leaflets, and he 
stands accused of ``disturbing public order.'' He was questioned for 
four hours and his home was raided. Police confiscated two computers 
and information from PEN's annual international congress, which took 
place last month in Tokyo, Japan, including a video clip that was shown 
at the conference of Liu Xia reading a letter from Liu Xiaobo, as well 
as a video about ICPC that included clips of Liu Xiaobo speaking about 
freedom of expression in China in 2006.
    On November 4, exiled poet Bei Ling, who is a co-founder of ICPC 
and recently wrote movingly about his friend Liu Xiaobo in a Wall 
Street Journal editorial, arrived at Beijing International Airport on a 
flight from Frankfurt for a brief stopover on his way to Taipei, where 
he was invited to participate in a discussion at Dongwu University and 
stay as a writer in residence. He was met by 20 police officers as soon 
as he disembarked and was taken to an empty room at the airport, where 
he says he was questioned for two hours and told that someone high in 
the government ordered that he not be permitted to travel on to Taiwan. 
He was instead manhandled and put on a plane back to Frankfurt. His 
baggage, which included two manuscripts about underground and exile 
literature, was confiscated and not returned.
    These are only a few of the outrages of recent weeks--many of which 
appear calculated to keep the Chinese people in the dark about Liu 
Xiaobo's award.
    We believe that it is right that President Obama and Secretary of 
State Clinton have raised Liu's case with their Chinese counterparts, 
both before and after his most recent sentence, as we at PEN American 
Center have asked them to do. We are grateful that Ambassador Jon 
Huntsman in Beijing sent representation to Liu's trial last year, as we 
urged him to do. We believe that China should live up the promises made 
in its own Constitution; promises it made when it signed the 
International Covenant on Civil and Political Rights. And we believe 
that it is America's obligation, as a party to the Covenant, to hold 
China to that standard. But the most fundamental reason why we should 
do this is that these demands are right.
    We specifically recommend to the Commission and to the Obama 
administration and Members of Congress, that in all communications with 
the Chinese government, you:

        1. Continue to press for the release of Liu Xiaobo at all 
        available opportunities;
        2. Call for the release of all other writers imprisoned in 
        violation of their right to freedom of expression;
        3. Urge the government of the People's Republic of China to 
        ratify the International Covenant on Civil and Political 
        Rights.

    The Chinese government argues that their treatment of Liu Xiaobo is 
an internal matter, and that international awards and advocacy on his 
behalf amount to meddling in China's internal affairs. But the 
treatment he has endured is by definition an international matter, just 
as all violations of human rights are matters of legitimate concern to 
the whole world. By detaining Liu Xiaobo for more than a year, and then 
by convicting and sentencing him to 11 years in prison in clear 
violation of his most fundamental, internationally recognized rights, 
the People's Republic of China itself has guaranteed that his case is 
not and cannot be a purely internal affair.
    We have no hostility toward China or the Chinese. Indeed, it is our 
respect and concern for China and her people that leads us to urge 
their government to allow them--all of them--the freedom to write and 
to read and to organize that will allow them to be responsible citizens 
of a democratic society, and will then allow China to be a responsible 
and respected colleague in the community of democratic nations.
                                 ______
                                 

              Prepared Statement of Elizabeth C. Economy*

                            November 9, 2010

                              INTRODUCTION

    Within China, there is widespread agreement on the need for 
political reform. There is no agreement, however, on precisely what a 
``politically-reformed'' China should look like, much less a road-map 
for how to get there.
---------------------------------------------------------------------------
    * The Council on Foreign Relations takes no institutional position 
on policy issues and has no affiliation with the US government. All 
statements of fact and expressions of opinion contained herein are the 
sole responsibility of the author.
---------------------------------------------------------------------------
    While discussions of political reform have been ongoing in one form 
or another since the Chinese Communist Party assumed power in 1949, the 
debate has assumed new life over the past few months. A series of 
commentaries by Premier Wen Jiabao raising the issue more directly than 
previously, the awarding of the Nobel Peace Prize to political 
dissident and activist Liu Xiaobo, and calls for bolder political 
action by retired party elders and intellectuals have all placed the 
reform issue front and center in Chinese political discourse. Such 
discussion is given added weight by the fact that it is occurring 
against a backdrop of a far more vibrant print and Web-based media and 
an engaged civil society. China's rise and obligations as a global 
power also mean that foreign policy experts are now entering into the 
country's domestic policy debate. They realize that China's global 
image and impact-on the environment, health, and security-rests in 
large part on Chinese domestic politics and practices.

                        POLITICAL MODERNIZATION

    In most official contexts--leaders' speeches and officially-
sanctioned editorials--political restructuring or reform means making 
the system more efficient and representative, while at the same time 
preserving the authority of the Communist Party. The communique of the 
fifth plenum of the 17th Party Congress in mid-October 2010, which sets 
the tone for the work of the party over the next five years, stated, 
``Great impetus will be given to economic restructuring while vigorous 
yet steady efforts should be made to promote political restructuring.'' 
A series of People's Daily editorials published in October articulated 
the central party leadership's interest in a reasonably constrained 
version of political reform. The editorials argued that in the process 
of political restructuring, it is ``imperative to adhere to party 
leadership, to the socialist system and to socialism with Chinese 
characteristics,'' \1\ and that the aim of political reform is to 
``enhance the vitality of the Party and the country and to mobilize 
people's enthusiasm.'' \2\
---------------------------------------------------------------------------
    \1\ ``Vigorous, steady efforts urged to advance political 
structural reform,'' People's Daily Online (October 27, 2010).
    \2\ Qingyuan Zheng, ``Political orientation crucial,'' People's 
Daily Online (October 29, 2010).
---------------------------------------------------------------------------
    In practical terms, Beijing has launched several notable 
initiatives to develop a system of official accountability and advance 
transparency within the political system. There have been anti-
corruption campaigns; regulations to promote public access to 
information in areas such as the environment and to govern ``the 
convening of Party congresses, selection for and retirement from 
official posts, and fixed-term limits''; \3\ and experiments in 
budgetary reform. Beijing has also permitted a few non-Communist Party 
members to hold key positions within the government, including Wan 
Gang, the Minister of Science and Technology, and Chen Zhu, the 
Minister of Health.
---------------------------------------------------------------------------
    \3\ C. Fred Bergsten et al. China's Rise: Challenges and 
Opportunities. Washington, DC: Peterson Institute for International 
Economics and Center for Strategic and International Studies, 2008: p. 
62. Web. Accessed 1 November 2010.
---------------------------------------------------------------------------
    With social unrest on the rise, the Party is also searching for 
ways to be more responsive to the interests of the Chinese people, 
without transforming the system. One effort is a online bulletin board, 
``Direct Line to Zhongnanhai,'' where the Chinese people can leave 
messages for the top leaders, and both President Hu Jintao and Premier 
Wen Jiabao have participated in active Web-based dialogues with the 
Chinese people. Local officials may appear on radio shows and some 
delegates to the National People's Congress (NPC) and District 
Congresses have also established times to meet with their constituents 
to listen to their concerns, although there has been discussion within 
the NPC that these meetings are problematic because officials may 
develop individual constituencies and popular followings.

                          REVOLUTIONARY REFORM

    While a significant segment of China's political elite works to 
``modernize'' the political system, others seek to revolutionize it. 
Political activist and Nobel Peace prize winner Liu Xiaobo represents 
the boldest of those who call for such revolutionary reform with his 
online human rights manifesto, Charter 08, and his calls for universal 
values, direct elections, and multi-party democracy.
    Fundamental political reform is viewed as a necessity by many 
Chinese intellectuals and media elite. After Liu's award, a group of 
100 journalists, scholars, writers and ordinary citizens signed a 
public letter calling on the Party to realize the goals of democracy 
and constitutional government espoused by Liu. Just prior to Liu's 
award, a group of retired Party elders submitted a letter to the 
Standing Committee of the National People's Congress calling for 
freedom of speech and press, and the abolition of censorship. This 
group included many former senior media officials, such as the former 
director of People's Daily, editor-in-chief of China Daily, deputy 
director of Xinhua News Agency, and even the former head of the News 
Office of the Central Propaganda Department.
    Such reformers clearly view Premier Wen Jiabao as their patron 
within the Chinese leadership. Premier Wen, in a set of speeches over 
the past year, as well as a much heralded interview with CNN, has 
argued that freedom of speech is ``indispensable for any country,'' and 
that ``continuous progress and the people's wishes for and needs for 
democracy and freedom are inevitable.'' He further has noted that the 
Party has to evolve--one that served as a revolutionary party should 
not look the same as a governing party. Wen's concluding remarks in the 
CNN interview further suggest that he was pushing for change outside 
generally-accepted party principles: ``I will not fall in spite of a 
strong wind and harsh rain, and I will not yield till the last day of 
my life.''
    These highly public calls for revolutionary reform are not taking 
place in isolation. There is also a vibrant discourse in the print and 
online media that supports such high profile efforts. Journalists, 
scholars and Web activists all maintain a constant stream of advocacy 
for more fundamental political reform. They lodge their calls for such 
reform as essential to the achievement of key Communist Party 
priorities.
    One popular argument for revolutionary political reform, for 
example, is that it is necessary for continued economic growth. An 
editorial ``The Only Answer is Political Reform,'' published by the 
board of the Economic Observer in late October 2010, makes precisely 
this point: ``Without reforming the political system, we cannot 
guarantee the benefits that economic reform brings, nor will we be able 
to continue to push ahead with reforms to the economic system and 
social reform will also fail. . .In fact, whether it's breaking the 
deadlock on economic reform or making a breakthrough on social reform, 
both rely on pushing ahead with political reform.''
    Political reform advocates also often suggest that stability--one 
of the Party's top priorities--can only be ensured by more fundamental 
reform. Hu Shuli, the outspoken editor of Caixin and Century Weekly, 
for example, argues that political reform has stagnated because of 
``fears that a misstep would lead to social unrest.'' She goes on to 
note, however, that ``Overblown worries that delay what's needed only 
exacerbate the very tensions threatening to destabilize society.'' 
Similarly, Liang Wendao, a host on Phoenix Satellite TV, wrote an 
editorial detailing a number of social challenges, such as 
``carcinogenic tea oil being sold in supermarkets, rumors of deadly 
tick bites and the resistance to forced demolitions'' and argued that 
all of these are counterproductive to the official goal of 
``maintaining stability.'' His conclusion is that ``If these subjects 
are open for discussion and criticism, the darkest truth from these 
three events may finally arise: the stability that the authorities were 
trying to maintain is precisely a kind of instability.'' \4\
---------------------------------------------------------------------------
    \4\ Wendao Liang, ``The Etymology of Social Stability,'' Caixin 
online (October 18, 2010). Accessed at http://english.caing.com/201O-
10-18/1001.
---------------------------------------------------------------------------
    The role of political reform in improving China's foreign policy 
and image is also becoming a popular theme. Wang Jisi, head of Peking 
University's International Relations Department, for example, has 
stated that the only way to overcome the unfortunate oscillation within 
Chinese political thinking and commentary between claiming superiority 
and inferiority or victimization is by more exposure to the outside 
world, better education within China and improving ``our own society 
and rule of law.'' An editorial in Century Weekly, entitled ``At Last, 
A Magic Moment for Political Reform,'' echoes this theme, noting that 
social problems, such as forced evictions, have strained relations 
between the government and people, causing people to lose faith in 
their country and damaging China's image abroad.

                       A VIRTUAL POLITICAL SYSTEM

    The growing role of the Internet in Chinese political life poses a 
significant challenge to the Party's efforts to constrain political 
reform. While the Internet is a valuable tool for the Party, both in 
learning what the Chinese people are thinking and in promoting 
transparency within the political system, it raises serious concerns as 
well. Central Party School official Gao Xinmin raised several issues in 
an off-the-record speech that was later made public on the Web: 
``Against a backdrop of a diversity of social values, new media have 
already become collection and distribution centers for thought, culture 
and information, and tools for the amplification of public opinion in 
society. They are a direct challenge to the Party's thought leadership 
and to traditional methods of channeling public opinion. Traditional 
thought and education originates at the upper levels, with the 
representatives of organizations, but in the Internet age, anyone can 
voice their views and influence others. Many factual instances of mass 
incidents are pushed by waves of public opinion online, and in many 
cases careless remarks from leaders precipitate a backlash of public 
opinion.''
    The Internet is, in fact, evolving into a virtual political system 
in China: \5\ the Chinese people inform themselves, organize, and 
protest online. As the blogger Qiu Xuebin writes, ``When the interests 
of the people go unanswered long term, the people light up in fury like 
sparks on brushwood. The internet is an exhaust pipe, already spewing 
much public indignation. But if the people's realistic means of making 
claims are hindered, in the end we slip out of the make-believe world 
that is the internet and hit the streets.'' In July 2010, bloggers 
provided firsthand accounts of a large-scale pollution disaster in 
Jilin Province, contradicting official reports. Thousands of people 
ignored government officials, angrily accusing them of a cover-up, and 
rushed to buy bottled water. Chinese are also ``voting'' online. In one 
instance, a journalist sought by the police on trumped-up charges of 
slander took his case to the Internet. Of the 33,000 people polled, 86 
percent said they believed he was innocent. The Economic Observer then 
launched a broadside against the police, condemning their attempt to 
threaten a ``media professional.'' The authorities subsequently dropped 
the charges against the journalist.
---------------------------------------------------------------------------
    \5\ The following discussion is taken from Elizabeth C. Economy, 
``The Game Changer: Coping With China's Foreign Policy Revolution,'' 
Foreign Affairs (November/December 2010), p. 145.
---------------------------------------------------------------------------
    Activists have also used the Internet to launch successful 
canpaigns--some involving physical protests--to prevent the 
construction of dams and pollution factories and to oppose the removal 
of Cantonese on television programs airing in Guangdong. Most striking 
perhaps, has been the emergence of iconic cultural figures who use the 
Internet for political purposes. The renowned artist Ai Weiwei, for 
example, has pursued justice for families whose children died in the 
Sichuan earthquake, even documenting his encounters with recalcitrant 
officials on YouTube. The racecar driver and novelist-turned-blogger, 
Han Han, routinely calls for greater media and cultural freedom. Since 
its launch in 2006, his blog has received more than 410 million hits.
    The social network site Twitter, despite being blocked in China, 
has become a particularly politicized Internet venue. According to the 
popular netizen Michael Anti, Twitter is the most important political 
organizing force in China today. He notes that more than 1.4 million 
yuan was raised for the beleaguered NGO Gongmeng (Open Constitution 
Initiative) via Twitter. And he points to the uncensored discussion 
held between the Dalai Lama and Chinese citizens in May 2010 as an 
example of the political influence that Twitter can exert. According to 
Anti, the people who participated stopped referring to the Dalai Lama 
as Dalai and now call him by the more respectful Dalai Lama. Anti 
reports that there are over 100,000 active Chinese Twitter users, and 
he anticipates that there will be 500,000 or more within the next two 
to three years.
    Anti's claim of the importance of Twitter as a political force is 
supported by others. A poll of 1,000 Chinese Twitter users found that 
of the top twenty reasons why people access the site, almost a third of 
them are political: ``to know the truth and open the horizon''; ``no 
censor here''; ``this is the taste of freedom that I enjoy''; ``it 
allows me to keep my independent citizen conscious''; ``feel that as a 
party member I should learn more about this world''; ``it is an 
inevitable choice for a journalism student''. Moreover, according to 
the media critic Hu Yong, as Beijing has moved to strengthen its 
censorship efforts, Twitter has become more political in its 
orientation. He sees Twitter as particularly important because it 
brings together opinion leaders from around the world to sit at a 
virtual table. There, public intellectuals, rights advocates, veterans 
of civil rights movements and exiled dissidents can all converse 
simultaneously.\6\
---------------------------------------------------------------------------
    \6\ Yong Hu, ``The Revolt of China's Twittering Classes,'' Project 
Syndicate (October 14, 2010). Accessed at http://
www.projectsyndicate.org/commentary/hu2/English.
---------------------------------------------------------------------------
                        LOOKING AROUND THE BEND

    Implicit, and often explicit, in the debate over the nature of 
China's future political reform is the role of the outside world. A 
recurrent theme is a willingness to learn from the West but a rejection 
of a Western model. Qin Xiao, the former Chairman of China Merchant 
Bank Group, speaks the need for such a balance: ``An historic theme in 
modern China is the search for a unique model and way to modernize. A 
major part of this theme revolves around a `dispute between the west 
and China and a debate of the ancient and modern.' . . . It misreads 
and misinterprets universal values and modern society. It is a kind of 
narrow-minded nationalism that rejects universal civilization . . . 
Adhering to universal values, while creating Chinese style approaches, 
is truly the objective for our time.'' \7\ And the Global Times notes, 
``China has to continue its political reforms in the future, including 
drawing beneficial experiences from Western democratic politics, 
however, China will never be a sub-civilization, and it will only 
follow its roadmap in a gradual manner.''
---------------------------------------------------------------------------
    \7\ Xiao Qin, ``In China, A Rising Tide for Universal Values,'' 
Caixin online transcript (October 25, 2010) from a speech presented by 
Qin at the Seminar on Enlightenment and China's Social Transition on 
July 4,2010.
---------------------------------------------------------------------------
    This cautious blending of political modernization and revolutionary 
reform will most likely find a home in China's system of experiments. 
Much in the way that China began its economic reform process with 
special economic zones, it may well be initiating similar special zones 
for political reform.
    In Shenzhen, where Premier Wen delivered one of his recent speeches 
on political reform, there is a novel political experiment underway. 
Supported by both Wen and Guangdong Party Secretary Wang Yang, 
Shenzhen's political reform is at the outer edge of the political 
modernization approach. The stated goal is strictly in line with the 
Party's constrained vision of political reform: to build a socialist 
democracy and a rule-of-law system, to develop a clean, efficient and 
service-oriented government, and to construct a complete market system, 
a socialist advanced culture, and a harmonious society.\8\
---------------------------------------------------------------------------
    \8\ Zhiyue Bo, ``Guangdong Under Wang Yang: `Mind Liberation' and 
Development,'' East-Asia Institute Background Brief No. 405 (September 
12, 2008), pp. 10-11.
---------------------------------------------------------------------------
    At the same time, the approach has some potentially revolutionary 
reform elements: gradually expanding direct elections, introducing more 
candidates than there are positions for heads of districts, and 
considering allowing candidates to compete for positions of standing 
members of district or municipal Party committees by organizing 
campaigns within certain boundaries.\9\ Already, Shenzhen has ``cut 
one-third of its departments, transferred or retired hundreds of 
officials, and forced officials to give up parallel positions on 
outside associations and charities.'' Shenzhen's greatest innovation, 
however, has been to allow civic organizations to register without a 
government agency oversight, to seek private funding outside China, to 
hire foreigners, and to sell their services to the city in areas such 
as the mental health of migrant laborers.\10\
---------------------------------------------------------------------------
    \9\ Zhiyue Bo, ``Guangdong Under Wang Yang: `Mind Liberation' and 
Development,'' p. 10-11.
    \10\ Jeremy Page, ``China Tests New Political Model in Shenzhen,'' 
Wall Street Journal (October 18, 2010). Accessed at http://
online.wsj.com/article/
SB10001424052702304250404575558103303251616.html.
---------------------------------------------------------------------------
    The Shenzhen experiment and the others that will follow may provide 
at least part of the much needed roadmap for China's political future. 
Even as the Party attempts to keep up with the demand for change 
generated by the Chinese people, as the Global Times points out, the 
life of ``an ordinary Chinese'' has been transformed over the past 
thirty years: the way of accessing information, freedom of speech, the 
right to decide his own life and protect individual property are 
``drastically different from 30 years ago.'' \11\ Whether led by the 
party, the people, or both, it is clear that political change of an 
equal magnitude is well underway.
---------------------------------------------------------------------------
    \11\ ``China has to pursue gradual political reform,'' Global Times 
(October 15, 2010). Accessed at http://opinion.globaltimes.cn/
editorial/2010-10/582245.html.
---------------------------------------------------------------------------
       THE ROLE OF THE UNITED STATES AND INTERNATIONAL COMMUNITY

    The role of the international community in encouraging and 
bolstering those who seek to transform China is limited but not 
inconsequential. As those within China push for their country to 
respect and adhere to the ideas of universal values, there are several 
avenues through which the outside world can engage with China's process 
of political change:

        <bullet> International recognition for those who work within 
        China to promote these values, such as the decision to award 
        the Nobel Peace Prize to Liu Xiaobo, sends an important signal 
        that the outside world supports their efforts and sends a 
        message to Beijing that the country is not living up to the 
        best of its own ideals.
        <bullet> The international community should establish the 
        linkage between China's governance failures domestically on 
        issues such as environmental protection, public health, and 
        product safety and its impact abroad reinforces to the Chinese 
        leadership why China's political practices at home matter to 
        the rest of the world.
        <bullet> The United States should continue its traditional 
        efforts to raise the cases of individual Chinese human rights 
        activists who have been imprisoned and to work with Chinese 
        partners to advance political reform through the legal system 
        or through efforts to promote transparency. At the same time, 
        it is important to remove the human rights issue from a 
        uniquely bilateral focus and work with other democratic 
        countries in and outside Asia to raise issues of political 
        reform with Chinese officials.
        <bullet> To the extent that the United States and others can 
        advance the cause of political reform in other non-democratic 
        states in Asia, such as Vietnam, this may also serve as an 
        important source of pressure on Chinese elites.
                                 ______
                                 

                   Prepared Statement of Bruce Gilley

                            November 9, 2010

                    Liu Xiaobo and Dutch's Optimism

    Honored Commission Members,
    I am grateful to have the opportunity to address the committee this 
morning on the important and inspiring award of the 2010 Nobel Peace 
Prize to China's Liu Xiaobo. The perspective I would like to offer is 
simple and can be stated as follows: Liu Xiaobo's award is important 
because it is a reminder to us in the free world, the West, and the 
United States that even though we are entering a period of intense 
rivalry and possibly conflict with a rising China, the smiling forces 
of modernization and liberalization are at work in that country. This 
means that in the coming decades, even as we manage and challenge 
potentially disruptive behavior by China's rulers, its people continue 
to march toward a democratic society.
    I do not believe that the Nobel prize will have any measurable 
effect on political reform in China, any more than the award of the 
same prize to His Holiness the Dalai Lama in 1989 had any effect on 
Chinese rule in Tibet. But I do believe it will serve as an important 
beacon to policy-makers outside of China, reminding them to engage and 
target, and to retain faith in, Liu Xiaobo's China. The temptation to 
believe that we are engaged in a life-or-death struggle with a hostile 
new Oriental juggernaut will be strong in the coming decades. We should 
instead use Liu Xiaobo's award to think more carefully about what is 
going on in China, which I will address briefly here, and to retain a 
certain Reaganesque optimism about the potential for human freedom 
everywhere. We should respond to a rising China the same way that Liu 
Xiaobo responded to his state security captors before he was sent to 
jail: we have no enemies, only acquaintances who are still trapped in 
yesterday's modes of thought and action, acquaintances whom we hope and 
believe fervently will someday become our friends.
    Honored Commission members, the year is 1975. Russia's GDP per 
capita in that year is about the same as China's today. Andrei Sakharov 
has just been awarded the Nobel Peace Prize and in a few years will be 
put under house arrest in Gorky. Global geo-political rivalries are 
intensifying. The international politics of the Soviet Union is 
entering its most difficult period--we have the invasion of 
Afghanistan, proxy wars in Africa and Latin America, arms races, 
martial law in Poland, KAL 007, and Chernobyl yet to come. Earlier 
claims that the Soviet Union is modernizing and liberalizing because of 
the post-totalitarian reforms ushered in by Khrushchev are now scoffed 
at. Smart people, like Harvard professor Samuel Huntington, are saying 
that the chances for democratic change in the Soviet Union are 
``virtually nil.''
    Looking back, we see that we missed something fundamental. By 
focusing on SALT talks, or by dismissing Sakharov as a vain hope of the 
West, we did not see how this great authoritarian creation was entering 
its last decades. The message of Sakharov's prize, in retrospect, was 
that we should have been better Marxists, trusting that the ineluctable 
forces of modernization would bring political change, although not the 
sort Marx imagined. Instead, we were Hobbesians, believing we needed to 
prepare home defense in the face of a Spanish Armada, an increasingly 
cold and competitive world of enemies and invaders. Had we been more 
ready to respond to the good luck of history, some, but not all of the 
democratic regress that subsequently occurred in Russia, might have 
been avoided.
    China is in the same position today. Externally, whether in its 
assertive claims in the South China and East China Seas, its attempts 
to use coercive economic diplomacy, or its domestic silencing of 
dissent, we see another juggernaut. Yet this is not a juggernaut. This 
is a juggler. Behind the assertiveness and rhetoric is a country 
struggling mightily with the implications of development--social, 
environmental, financial, economic, cultural, and, political. It is 
easy to get carried away in the Orientalist imagery of Moors or Mongols 
challenging the West. But China represents no fundamental challenge to 
the West. It's contributions to key global issues like terrorism, the 
environmental, financial restructuring, global health, disaster relief, 
peacebuilding, and weapons proliferation are marginal. The West retains 
its indispensability and will continue to do so as long as it continues 
to represent the basic humanistic impulse better than any other part of 
the world. Internally, while the CCP continues to suppress dissent and 
control information, it does so against the backdrop of an increasingly 
outspoken and informed citizenry.
    The CCP leadership, which is entering a delicate transition in 
2012, is deeply divided on the question of political reform. There are 
two visions of political reform competing within the leadership today. 
One, associated with premier Wen Jiabao and earlier with his mentor 
Zhao Ziyang, purged in 1989, is what we might call the grassroots 
democracy vision. This vision imagines a China with an increasingly 
vigorous electoral and civil society-based democracy at the local level 
up to and including provinces. This vision is all about bottom-up 
accountability. It is often consciously modeled on the Taiwan 
experience, and includes a leading role for the CCP at the national 
level for some transitional period. Wen has championed the expansion of 
direct elections to the township level. It is the approach likely to be 
favored by incoming party general secretary Xi Jinping, who experienced 
and supported the lively civil society and local politics in Zhejiang 
and Fujian provinces during his periods there.
    The second vision is what we might call the party democracy view, 
which is promoted by party general secretary Hu Jintao. It is about 
top-down accountability. Ironically, this is the approach that was 
adopted by Gorbachev. The focus here is on fighting corruption within 
the party, increasing internal debates and even elections within the 
party, and using party mandates to strengthen the accountability of 
local governments. In the new leadership of 2012, this vision will be 
represented by premier Li Keqiang.
    What is important about this debate is that it reminds us of the 
party's race against time to maintain its legitimacy. We often assume 
that the regime's legitimacy comes from economic growth and nationalism 
alone. It does not. It also comes from the steady expansion of social 
and economic freedoms as well as real improvements in governance that 
have been seen in the last 20 years. The amount of energy and 
creativity being poured into both the grassroots democracy and the 
party democracy visions of political reform tell us that China's 
leaders--if not China's foreign admirers--think that political reform 
matters to their future. And to be sure, this same authoritarian 
adaptability has succeeded in delivering improvements in rights and 
governance that have satisfied most Chinese for the past 20 years.
    The mistake is to think that the party can satiate the thirst for 
freedom forever with, for instance, fewer limits on internal migration 
or more efficient passport processing bureaucracies. There is still 
probably several more years in which such performance will work to 
maintain legitimacy. But experience elsewhere tells us that social 
demands for democracy will eventually delegitimize the current regime--
and then it is a question of how long the regime decides to cling to 
power or how quickly it undertakes preemptive moves toward real 
democracy.
    This is where Liu Xiaobo comes in. Liu represents a third vision of 
political reform, one of liberal democracy. Emerging from the 1989 
Tiananmen movement, and tracing its origins back to the late 19th 
century and early republican thinkers of China, this vision seeks a 
deliberate transition to a liberal democratic political system, in 
today's situation through a gradual implementation of existing PRC 
constitutional provisions, minus the CCP's messianic leading role. Liu 
is a reminder of this stirring outcome that plausibly awaits China at 
the end of this long race--namely a thoughtful, tolerant, inventive, 
and liberal social and political system, infused with the richness and 
wisdom of Chinese civilization. That outcome seems impossible to 
imagine at present just as it was of the Soviet Union of 1975. Yet it 
is more likely to occur and (unlike Russia) to endure because, unlike 
the Soviet Union, China has already completed its transition to a 
market economy and it will not face a humiliating loss of its world 
power. Political scientists Ronald Inglehart and Christian Welzel 
conclude in their 2005 book on ``The Human Development Sequence,'' 
using extensive cross-national data on value transformation and 
democratization, that ``China will make a transition to a liberal 
democracy within the next two decades.'' As Moshe Lewin presciently saw 
in his 1988 book ``The Gorbachev Phenomenon'' about Russian society and 
the CPSU, Chinese society will slowly outgrow the CCP.
    Liu Xiaobo helps us to focus on this China, and not to imagine that 
the insecure and increasingly aggressive external China is the one of 
the future. He is a reminder that the reason we should not confront or 
contain China is not some relativistic argument that the Chinese are 
different or prefer tyranny to democracy, nor that we need to reach 
some realistic accommodation with this titan of the East. Instead, we 
need to respond thoughtfully to the China of the current regime because 
we have faith that its days are numbered.
    Reagan, who came into office as a Cold Warrior extraordinaire, 
instinctively realized this about the Soviet Union and changed tack in 
his second term. Liu Xiaobo reminds us of the need to retain Dutch's 
infectious optimism about the fate of communist regimes, especially 
rapidly modernizing ones. He reminds us of the need to have confidence 
in the universal values of elections, the rule of law, pluralism, and 
human rights that are today so widely discussed in China. Who truly 
could imagine, just a few years ago, that the outgoing chairman of key 
state enterprise would choose to use his valedictory address to urge 
China's young people to reject the so-called ``China Model'' of 
authoritarian development and instead embrace ``universal values'' with 
democracy at their core, as retiring China Merchants Group chairman Qin 
Xiao did at Tsinghua University's School of Economics and Management 
this past summer? For China's communist regime, the Cold War never 
ended and it never will. Our role is to avoid that same mistake, to 
realize that the Cold War is in fact over and that China's regime is 
being swept along by the forces of modernization like dozens before it.
    Recently, a Zhejiang University professor named Liu Guozhu, who is 
a senior fellow of that institution's Center for Civil Society and of 
the China Foundation for Human Rights, wrote an essay on the National 
Endowment for Democracy. The essay attacked the NED as a relic of the 
Cold War. It was quickly reprinted in party and Maoist Web sites and 
periodicals in China. After making some inquiries, I learned that Dr. 
Liu had originally written quite a different article, one with a 
largely positive view of the NED and its role in promoting democracy in 
Latin America, Africa, and East Asia. It was based on research that he 
conducted while visiting at San Diego State University in 2007 and 
2008. But no official publication would run the original article. Only 
after party editors rewrote the article in a critical tone was it 
published. This is a microcosm of contemporary China--the exterior face 
can seem oppositional, bellicose, and deeply illiberal. It is easy to 
see much evidence of hostile intent and behavior. But the interior mind 
is swirling, changing, seeking acceptance, and humanistic.
    Liu Xiaobo matters because he appeals to our better instincts in 
dealing with China. To celebrate positive change, to defend individuals 
and rights supporters, and to have confidence in the universality of 
freedom and democracy and their triumph everywhere is his challenge to 
us. ``I have no enemies,'' his words, should be ours too.
                                 ______
                                 

                   Prepared Statement of Phelim Kine

                            November 9, 2010

    The Nobel Committee's October 8, 2010, decision to award the Nobel 
Peace Prize to imprisoned Chinese writer and human rights activist Liu 
Xiaobo has put China's human rights deficit squarely back on the 
international agenda. It does so at a time when rights and freedoms 
guaranteed by both China's constitution and international law are under 
renewed attack by the Chinese government.
    Liu Xiaobo is an outspoken critic of the Chinese government, a 54-
year-old former university professor imprisoned in 2009 on 
``subversion'' charges for his involvement with Charter '08, a 
political manifesto calling for gradual political reforms in China. Liu 
was also jailed in 1989 for his role in the Tiananmen Square protests 
and again in 1996 for criticizing China's policy toward Taiwan and the 
Dalai Lama. Human Rights Watch honored Liu Xiaobo with the 2010 Alison 
Des Forges Award for Extraordinary Activism for his fearless commitment 
to freedom of expression and freedom of assembly in China.

  WHAT DOES THE AVERAGE CHINESE PERSON KNOW ABOUT LIU XIAOBO? WHAT DO 
           THOSE WHO KNOW WHO LIU XIAOBO IS THINK ABOUT HIM?

    To a large extent, the debate about Liu Xiaobo and his winning the 
Nobel Prize has occurred outside China due to strict censorship of 
state media and the Internet.
    Inside China, Liu Xiaobo has been relatively unknown outside of 
literary and intellectual circles, dissidents, human rights defenders, 
and civil society activists. That's because even prior to his arrest in 
December 2008, his works as a writer were officially marginalized or 
censored because of their implicit or explicit political critiques.
    Those in China who might want to learn about him are only able to 
access a government-approved portrait. After his arrest in December 
2008, Internet searches on Liu's name in China behind the government's 
so-called ``great firewall'' resulted overwhelmingly in state media 
reports on his sentencing. As recently as March 2010, Internet searches 
on references to Liu Xiaobo behind the firewall produced nothing more 
than a frozen Web browser. The vast majority of Chinese citizens 
cannot--without considerable difficulty--know of his struggle for 
universal human rights, rule of law, and respect for the freedoms 
embodied in China's constitution. The government's 21-year cover-up of 
the June 1989 massacre of unarmed protesters in Beijing and other 
cities means that most Chinese know little about the event at all, let 
alone that it was Liu Xiaobo who brokered the agreement with military 
authorities that allowed the peaceful exit of thousands of students 
from Tiananmen Square on the night of June 3, 1989. That intervention 
saved countless lives.
    For those Chinese citizens who do know Liu and who have worked with 
him, he is renowned as a tireless advocate of universal rights and 
freedoms and of peaceful political reform. More importantly, they see 
him as a high-profile symbol of the silent struggle of millions of 
others in China for the same goals. He has come to represent countless 
Chinese citizens languishing in secretive ``black jails,'' under house 
arrest, in re-education through labor camps, or serving prison 
sentences for advocating those same rights and freedoms.
what does the average chinese person know about his winning the nobel? 

                  WHAT DOES HE OR SHE THINK ABOUT IT?

    For the majority of Chinese citizens, whose news come via censored 
media, news of Liu's Nobel Prize was not immediate, as would occur in 
most countries, but came the following day.
    That's because the immediate official Chinese government reaction 
to Liu's Nobel Prize was silence. Neither Chinese China Central 
Television nor Hong Kong's nominally independent Phoenix TV mentioned 
Liu's Nobel Prize on the day of the announcement. Chinese censors 
quickly scrubbed, or ``harmonized'' Chinese-language Internet 
commentary, text messages, Web pages, and foreign television broadcasts 
which broadcast news of Liu's Nobel Prize.
    The only official comment available to Chinese citizens came later 
that day in the form of Ministry of Foreign Affairs' October 9, 2010, 
statement that described Liu as a ``criminal'' and criticized Liu's 
Nobel Prize victory as an act that ``profanes the Nobel Peace Prize.'' 
Chinese journalists were told to report only on the basis of the 
official statement.
    However, since October 9, the Chinese government has expanded its 
coverage of Liu winning the Nobel Prize. That coverage has been 
uniformly unflattering, including an October 14 Xinhua report 
describing the Nobel Prize as a ``political tool of the West.'' Three 
days later, Xinhua published a round-up of foreign commentary from 
countries including Saudi Arabia, Pakistan, Russia, and even Norway 
that criticized Liu's Nobel as politically motivated and inappropriate. 
On October 24, Xinhua described the members of the Nobel Committee as 
politicized and ``ignorant of world affairs.''
    The most detailed official media coverage of Liu's Nobel Prize is 
an October 28, 2010, Xinhua report titled ``Who is Liu Xiaobo? '' The 
article intensified the official smear campaign against Liu by listing 
a selective survey of quotes allegedly taken from Liu's three decades 
of written work designed to cast doubt on his credibility, patriotism, 
and even his sobriety. According to the article, Liu is a ``traitorous 
operative'' for foreign organizations such as the National Endowment 
for Democracy. The piece featured quotes allegedly sourced from Liu's 
works that appeared to make him sympathetic to China's colonization by 
foreign powers and critical of the physical and psychological strength 
of the Chinese people. Among some Chinese citizens, this intensifying 
official smear campaign is triggering a combination of cynical 
dismissal and angry nationalism about the award.
    At the same time, the award is also piquing curiosity in China 
about who Liu really is and why the government is so critical of him 
and his work. We know that Chinese activists have gone out onto the 
streets of Beijing and boarded buses to fake informal surveys of 
people's knowledge of Liu and his Nobel Prize. The majority of those 
quizzed in this very unscientific poll have never heard of Liu Xiaobo, 
but they express reflexive pride that a Chinese has won a Nobel Peace 
Prize and for endorsing rights and freedoms which they themselves 
support. Those individuals who have heard of Liu Xiaobo and have 
negative opinions of him through official state media coverage relate 
that they are still supportive of Liu's right to speak out despite 
their apparently divergent views.
    Paradoxically, the Chinese government's intensifying smear campaign 
of Liu Xiaobo is boosting Chinese citizens' awareness of who he is and 
an interest in what he had done to be the target of such official 
vitriol. This curiosity will inevitably prompt those citizens with 
Internet access and the interest and capability to use firewall 
circumvention tools to search for information about Liu Xiaobo that 
doesn't come from the Chinese government. Human Rights Watch's Chinese-
language website has registered a record number of browsers accessing 
our site (blocked in China) through proxy servers since the October 8 
Nobel announcement. On that day alone, our Chinese-language website 
recorded more than 1,600 visits by Internet-users in China, compared to 
a usual daily average of about 60 visits.

  WHAT DEBATE, IF ANY, HAS LIU XIAOBO'S WINNING THE NOBEL SPARKED IN 
       CHINA AMONG BOTH ORDINARY PEOPLE (LAOBAIXING) AND ELITES?

    Among elites interested in peaceful political change, Liu Xiaobo's 
Nobel Prize has provided a platform for expressing support for him and 
the ideals embodied in Charter '08. Just days after the prize was 
announced, a group of 23 senior Communist Party officials and 
intellectuals issued a public letter that praised Liu as a ``splendid 
choice'' for a Nobel Peace Prize, and echoed calls for his immediate 
release and an end to the ``invisible black hand'' of official 
censorship.
    Within the Chinese leadership, Liu's Nobel Prize appears to have 
been profoundly unsettling. Confident that its warning to the Norwegian 
government prior to the Nobel Prize announcement had averted any chance 
of Liu's victory, senior leaders appear to have been taken aback by the 
Nobel Committee's decision.
    On October 3, 2010, in a CNN interview, Premier Wen Jiabao 
advocated easing government restrictions on basic rights and freedoms, 
and stated that ``freedom of speech is indispensable.'' Wen's views, at 
odds with the policies of a government that since 2007 has steadily 
tightened its chokehold on dissidents, civil society activists, and 
journalists, suggested ongoing divisions in the leadership about those 
restrictions. Official censors responded by purging all video and 
transcripts of the CNN interview from Chinese Internet sites.
    Liu's Nobel Prize is a globally-known example of the gap between 
the Chinese government's lofty rhetoric on support for rule of law and 
human rights and the grimmer reality on the ground--an image the 
Chinese government has strenuously worked to cover up for over a 
decade, particularly in the run-up to the 2008 Beijing Olympics. As 
Liu's writings and the text of Charter '08 circulate virally across 
China's blogosphere among those interested in the country's most famous 
political prisoner, familiarity and support with universal rights and 
freedoms and the Chinese government's unwillingness to deliver on those 
becomes more widespread.
    The Chinese leadership will no doubt be debating whether it was a 
mistake to imprison Liu in the first place. Hardliners decided to make 
an example of Liu Xiaobo by sentencing him in 2008 to the longest 
possible prison term for ``inciting subversion'' since it became a 
crime in 1996; moderates, who had argued that Liu could continue to be 
tolerated though kept under surveillance, probably resisted imprisoning 
him for fear he would become a cause celebre. Those fears have now come 
to pass, but it remains unclear whether officials such as Xi Jinping 
and Li Kejiang, due to take over the leadership of China in 2012, will 
think seriously about freeing Liu before his imprisonment does even 
more damage to the Chinese government's reputation.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
   Michigan; Cochairman, Congressional-Executive Commission on China

                            November 9, 2010

    We hold this hearing today not only to shine a light on the Chinese 
government's mistreatment of Nobel Laureate, Liu Xiaobo, but to 
underline that China once again is at an important crossroads, and 
seems to be turning in the wrong direction. This has implications not 
only for the development of institutions of democratic governance in 
China, which it is the charge of this Commission by law to monitor, but 
also for the United States in managing our relations with China.
    The imprisonment of Liu Xiaobo is a personal tragedy, a national 
shame, and an international challenge. The answer is clear: Mr. Liu 
should be released immediately. For his more than two decades of 
advocating for freedom of speech, assembly, religion, peaceful 
democratic reform, transparency and accountability in China, Mr. Liu is 
currently serving an eleven-year sentence in a Chinese prison for 
``inciting subversion of state power.'' Those in China, like Mr. Liu, 
who have penned thoughtful essays or signed Charter 08 seek to advance 
debate, as the Charter states, on ``national governance, citizens' 
rights, and social development'' consistent with their ``duty as 
responsible and constructive citizens.'' Their commitment and 
contribution to their country must be recognized, as the Nobel 
Committee has done, and as we do today and their rights must be 
protected.
    The Chinese government has said that awarding the Nobel Prize to 
Liu Xiaobo ``shows a lack of respect for China's judicial system.'' I 
would like to take a moment to examine this claim. For it seems to me 
that what truly showed a lack of respect for China's judicial system 
were the numerous and well-documented violations of Chinese legal 
protections for criminal defendants that marred Mr. Liu's trial from 
the outset. I refer here to matters such as the failure of Chinese 
prosecutors to consult defense lawyers, and the speed with which 
prosecutors acted in indicting Mr. Liu and bringing him to trial, 
effectively denying his lawyers sufficient time to review the state's 
evidence and to prepare for his defense. Chinese officials prevented 
Mr. Liu's wife from attending his trial, in which she had hoped to 
testify on behalf of her husband. Mr. Liu's lawyers reportedly were 
ordered by state justice officials not to grant interviews. It is these 
abuses, committed by Chinese officials in China, not the actions of a 
committee in Oslo, that demonstrated ``a lack of respect for China's 
judicial system.''
    All nations have the responsibility to ensure fairness and 
transparency in judicial proceedings. The effective implementation of 
basic human rights and the ability of all people in China to live under 
the rule of law depend on careful attention to, and transparent 
compliance with, procedural norms and safeguards that meet 
international standards. It is in this connection that I would like to 
take a moment also to say a word about this Commission's Political 
Prisoner Database. The database, which is available to the public 
online via the Commission's Web site, contains information on thousands 
of political prisoners in China. These are individuals who have been 
imprisoned by the Chinese government for exercising their civil and 
political rights under China's Constitution and laws or under China's 
international human rights obligations. The enhancement of the Database 
that the Commission announced this past summer roughly doubled the 
types of information available to the public, enabling individuals, 
organizations, and governments to better report on political 
imprisonment in China and to more effectively advocate on behalf of 
Chinese political prisoners. And people around the world have been 
doing just that. The number of ``hits'' to the database from individual 
users, NGOs, academic institutions and governments around the world has 
skyrocketed. The Database makes clear that political imprisonment in 
China is well-documented, it is a practice whereby the Chinese 
government has shown disrespect for human rights and the rule of law in 
case after case, and it must end.
    Unfortunately, that does not appear likely. Since the Nobel 
Committee's announcement, Mr. Liu's wife, Liu Xia, has been harassed 
relentlessly, and remains under what appears to be house arrest. In the 
weeks following the Nobel Committee's announcement, several people who 
signed Charter 08 also have been harassed and detained. Chinese 
authorities have attempted to limit the dissemination of information 
about Liu's receiving the Nobel Prize, harassing members of the 
Independent Chinese PEN Center, a group that advocates for the rights 
of writers, whose American counterpart organization we are pleased to 
have represented on our panel here today. Diplomats report that the 
Chinese Embassy in Oslo has sent official letters to foreign embassies 
in the Norwegian capital asking them not to make statements in support 
of Liu, and not to attend the Nobel awards ceremony on December 10. 
This is not the behavior of a strong, responsible government.
    As Liu Xia said the morning her husband was selected to receive the 
Nobel Prize, ``China's new status in the world comes with increased 
responsibility. China should embrace this responsibility, and have 
pride in his selection and release him from prison.'' As Nobel laureate 
Vaclav Havel correctly noted, ``intimidation, propaganda, and 
repression are no substitute for reasoned dialogue. . . .'' And as 
Nobel laureate Desmond Tutu recently wrote together with Vaclav Havel,

        We know that many wrongs have been perpetrated against China 
        and its people throughout history. But awarding the Nobel Peace 
        Prize to Liu is not one of them. Nor is the peaceful call for 
        reform from the more than 10,000 Chinese citizens who dared to 
        sign Charter 08. . . . China has a chance to show that it is a 
        forward-looking nation, and can show the world that it has the 
        confidence to face criticism and embrace change. . . . This is 
        a moment for China to open up once again, to give its people 
        the ability to compete in the marketplace of ideas. . . .

    In a recent interview with CNN, Premier Wen Jiabao stated that,

        Freedom of speech is indispensable. . . . The people's wishes 
        for, and needs for, democracy and freedom are irresistible.

    We ask our witnesses today to help us assess the likelihood that 
these words will become the new basis for government action in China, 
and to describe for us their understanding of the prospects for 
political reform in China today.

                       Submission for the Record

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
